<html>
<title> - DRIVING AWAY WITH TAXPAYER DOLLARS: DHS'S FAILURE TO EFFECTIVELY MANAGE THE FPS VEHICLE FLEET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




DRIVING AWAY WITH TAXPAYER DOLLARS: DHS'S FAILURE TO EFFECTIVELY MANAGE 
                         THE FPS VEHICLE FLEET

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2015

                               __________

                           Serial No. 114-46

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-156 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         







     
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Oversight and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. John Roth, Inspector General, Office of Inspector General, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. L. Eric Patterson, Director, Federal Protective Service, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Thomas Chaleki, Deputy Chief Readiness Support Officer, 
  Management Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Appendix

Questions From Ranking Member Bennie G. Thompson for John Roth...    43
Questions From Chairman Scott Perry for L. Eric Patterson........    46
Questions From Ranking Member Bennie G. Thompson for L. Eric 
  Patterson......................................................    48
Questions From Chairman Scott Perry for Thomas Chaleki...........    52
Questions From Ranking Member Bennie G. Thompson for Thomas 
  Chaleki........................................................    56
 
DRIVING AWAY WITH TAXPAYER DOLLARS: DHS'S FAILURE TO EFFECTIVELY MANAGE 
                         THE FPS VEHICLE FLEET

                              ----------                              


                       Thursday, December 3, 2015

             U.S. House of Representatives,
                     Subcommittee on Oversight and 
                             Management Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:22 a.m., in 
Room 311, Cannon House Office Building, Hon. Scott Perry 
[Chairman of the subcommittee] presiding.
    Present: Representatives Perry, Clawson, Loudermilk, Watson 
Coleman, and Torres.
    Mr. Perry. The Committee on Homeland Security's 
Subcommittee on Oversight and Management Efficiency will come 
to order. The purpose of this hearing is to examine 
mismanagement of the Federal Protective Service's vehicle 
fleet.
    The Chair now recognizes himself for an opening statement. 
Before that, just on an administrative note, my counterpart, 
the Ranking Member, Ms. Watson Coleman, is on her way. We have 
been told that no one will object to the opening statement. So 
we are just going to proceed. If she does make it in time, she 
may make an opening statement. If she does not, we may adjourn 
at that point so that I can go vote. As soon as votes are 
complete, we will come back and re-adjourn the hearing and move 
forward from there. That is just to give you an idea. You can 
plan your bathroom breaks accordingly. All right.
    The Federal Protective Service has a vitally important 
mission to protect Federal facilities, including Federal 
employees, contractors, and visitors at those facilities. FPS 
secures approximately 9,500 facilities Nation-wide. Watchdogs 
have released numerous reports in recent years criticizing how 
FPS has managed its contract guard program and conducted 
facility security assessments. In October, the inspector 
general released a scathing report titled ``The FPS Vehicle 
Fleet is Not Managed Effectively.'' The report reads like a 
laundry list of poor--and this is my editorial--what seems to 
me gratuitous management decisions. According to the inspector 
general, the FPS wasted over $2.5 million in fiscal year 2014 
on its vehicle fleet due to numerous management failures. 
Specifically, FPS management did not justify the need for more 
vehicles than officers, use of larger sport utility vehicles, 
officers' authorization to drive from home to work in the 
Washington, DC, area, and discretionary equipment added to 
vehicles.
    FPS leased over 100 vehicles more than it had officers. 
That is after every single FPS officer was assigned a vehicle. 
I am sure sheriffs and chiefs of police back home in 
Pennsylvania would love to have such a budget and such 
latitude. I can tell you, as a service member--and, gentlemen, 
I will thank you in advance for your service--but as a service 
member who has served downrange and had to hoof it 8 miles from 
where I was sleeping to where I was operating because I didn't 
have a vehicle, we sure would have loved to have vehicles to 
complete our mission.
    In addition, FPS chose to lease more expensive sport 
utility vehicles even though 2013 component guidance stated 
that a sedan was preferred. FPS could have saved over $1 
million had it used sedans as opposed to SUVs. FPS officials 
explained that the larger capacity was needed to store officer 
equipment. However, the IG found that most officers did not 
have a majority of the equipment stored in their vehicles. In 
fact, some of the equipment wasn't even issued.
    Another management failure was the lack of justification in 
allowing officers in the National Capital Region, the NCR, to 
drive from home to work. Officers in the NCR drove more miles 
in their Government-issued SUVs commuting than actually 
performing their assigned duties and failed to accurately 
report whether their mileage was justified.
    I find that quite telling, gentlemen.
    The IG found that in certain instances, on-duty activities 
were reported as after-hours responses. The report also found 
that FPS overpaid an estimated $35,000 in monthly charges--
monthly--for equipment packages that added extras, such as bike 
racks and wireless security systems for the vehicles. The IG 
stated that FPS made ad hoc undocumented decisions regarding 
its vehicle fleet and was not in compliance with Federal and 
Departmental requirements. FPS failed to put rigorous controls 
in place to prevent waste. The limited safeguards that were in 
place were not followed. Officers did not appropriately 
document their mileage. Almost all of FPS' records did not 
match records in the General Services Administration's system.
    In 25 cases in particular, FPS reported vehicles having 
negative mileage, which I would hope would get somebody's 
attention. You know, from my standpoint, at some point, I would 
like DHS and FPS to explain to the Members how a vehicle has 
negative miles on it. Director Patterson has signed a new 
policy to address some of the IG's findings and intends to put 
new systems in place to better oversee the use of FPS vehicles.
    I will tell you, Director, in my opinion, in this one 
humble opinion, one individual's humble opinion, new policies 
aren't, you know, without changing some of the core standards 
and requirements here, is just not going to be good enough. But 
the American taxpayer deserves much better. Washington 
bureaucrats may wonder why this subcommittee is holding a 
hearing on an area that is such a small part of DHS's overall 
budget. The management failures and outright abuse outlined in 
the IG's report demonstrate a culture of waste by DHS regarding 
taxpayer--taxpayer, this is your neighbors'--taxpayer money. 
That is reprehensible. It is unacceptable.
    Since the IG only reviewed 1 year of data, it is safe to 
say FPS wasted millions more in previous years. Listen, I don't 
use the term ``wasted'' lightly. I would rather say ``spent.'' 
But, in my opinion, and based on this report, I can assume and 
I think America can assume it has been wasted, maybe even tens 
of millions, because we don't how long, I don't know how long 
this has been going on like this. Putting a new policy in place 
does not cut it. DHS must hold employees that waste taxpayer 
dollars accountable. Every dollar wasted on mismanagement is 
one less that goes to actually protecting the public. The 
American people will not stand for such management malpractice.
    The point is that we must hold ourselves as employees of 
the Federal Government, whether elected, whether appointed, 
whether hired, we must hold ourselves accountable and seek the 
best for the taxpayers that we are beholden to. We all must do 
that. Whether or not there is a directive to do it from up 
above, we must take it upon ourselves, the oath that we took 
when we signed up for this mission to do the best we can, 
regardless, regardless of what somebody above us is telling us. 
We know better. We must do better.
    Every dollar wasted on mismanagement is one less that goes 
to actually protecting the public. I am just thinking about 
events in the last 24 hours. I know it didn't happen at a 
Federal facility. But God help us when one does and somebody 
comes to the committee and says, ``Well, we need more money to 
protect these facilities and these people,'' we can look at 
ourselves--and, look, if I had a mirror in front of me, I am 
telling you I would be looking at myself too, but I know I am 
looking at you two gentlemen in particular. But this is part of 
that. That is what we are talking about when these things 
happen. So we need to make sure that our dollars are spent most 
wisely. The American people will not stand for such 
mismanagement practice.
    [The statement of Mr. Perry follows:]
                   Statement of Chairman Scott Perry
                            December 3, 2015
    The Federal Protective Service (FPS) has an important mission to 
protect Federal facilities including Federal employees, contractors, 
and visitors at those facilities. FPS secures approximately 9,500 
facilities Nation-wide. Watchdogs have released numerous reports in 
recent years criticizing how FPS has managed its contract guard program 
and conducted facility security assessments. In October, the inspector 
general released a scathing report titled ``The FPS Vehicle Fleet Is 
Not Managed Effectively.'' The report reads like a laundry list of poor 
management decisions.
    According to the inspector general, FPS wasted over $2.5 million 
dollars in fiscal year 2014 on its vehicle fleet due to numerous 
management failures. Specifically, FPS management did not justify the 
need for more vehicles than officers; use of larger sport utility 
vehicles; officers' authorization to drive from home to work in the 
Washington, DC area; and discretionary equipment added to vehicles. FPS 
leased over 100 vehicles more than it had officers. And that's after 
every single FPS officer was assigned a vehicle. I'm sure sheriffs and 
chiefs of police back home in Pennsylvania would love to have such a 
budget.
    In addition, FPS chose to lease more expensive sport utility 
vehicles even though 2013 component guidance stated that a sedan was 
preferred. FPS could have saved over $1 million dollars had it used 
sedans as opposed to SUVs. FPS officials explained that the larger 
capacity was needed to store officer equipment. However, the IG found 
that most officers did not have a majority of the equipment stored in 
their vehicles. In fact, some of the equipment wasn't even issued.
    Another management failure was the lack of justification in 
allowing officers in the National Capital Region (NCR) to drive from 
home to work. Officers in the NCR drove more miles in their Government-
issued SUVs commuting than actually performing their assigned duties 
and failed to accurately report whether their mileage was justified. 
The IG found that, in certain instances, on-duty activities were 
reported as after-hours responses. The report also found that FPS 
overpaid an estimated $35,000 in monthly charges for equipment packages 
that added extras, such as bike racks and wireless security systems, 
for the vehicles.
    The IG stated that FPS made ``ad hoc, undocumented decisions'' 
regarding its vehicle fleet and was ``not in compliance with Federal 
and departmental requirements.'' FPS failed to put rigorous controls in 
place to prevent waste and the limited safeguards that were in place 
were not followed. Officers did not appropriately document their 
mileage and almost all of FPS's records did not match records in the 
General Services Administration's (GSA) system. In 25 cases, FPS 
reported vehicles having negative mileage. I'd like DHS and FPS to 
explain to the Members how a vehicle has negative miles. Director 
Patterson has signed a new policy to address some of the IG's findings 
and intends to put new systems in place to better oversee the use of 
FPS vehicles.
    But the American taxpayer deserves much better. Washington 
bureaucrats may wonder why this subcommittee is holding a hearing on an 
area that is such a small part of DHS's overall budget. The management 
failures outlined in the IG's report demonstrate a culture of waste by 
DHS regarding taxpayer money. That is reprehensible and unacceptable. 
Since the IG only reviewed 1 year of data, it's safe to say FPS wasted 
millions more in previous years; maybe even tens of millions. Putting a 
new policy in place doesn't cut it. DHS must hold employees that waste 
taxpayer dollars accountable. Every dollar wasted on mismanagement is 
one less that goes to actually protecting the public. The American 
people will not stand for such management malpractice.

    Mr. Perry. Votes have been called on the House floor. So, 
without objection, the subcommittee stands in recess subject to 
the call of the Chair. We will reconvene following the vote 
series. Thank you, ladies and gentlemen.
    [Recess.]
    Mr. Perry. The Chair now recognizes the Ranking Minority 
Member of the subcommittee, the gentlelady from New Jersey, 
Mrs. Watson Coleman, for her statement.
    Mrs. Watson Coleman. Thank you, Chairman Perry, for holding 
today's hearing.
    Thank you, Inspector General Roth, Director Patterson, and 
Mr. Chaleki, for your testimony today.
    The Federal Protective Service, a subcomponent of the 
National Protection and Programs Directorate, provides 
integrated security and law enforcement services to more than 
9,500 Federal facilities Nation-wide. FPS fulfils a critical 
mission, one rooted in protecting essential infrastructure, 
Federal buildings, and its occupants. While the presence of FPS 
is imperative to the protection of Federal facilities, it is 
equally important that FPS performs its everyday functions in 
an efficient manner with appropriate management oversight.
    Currently, FPS manages a fleet of approximately 1,100 
vehicles at a cost of $10.7 million. These vehicles assist FPS 
Officers in their coverage of Federal facilities and allows 
them to store and carry their essential law enforcement 
equipment.
    The Department of Homeland Security Office of the Inspector 
General recently investigated FPS' management of its vehicle 
fleet and concluded that FPS is not managing its vehicle fleet 
effectively, specifically citing expensive equipment packages, 
the overuse of sport utility vehicles, and a lack of consistent 
Department oversight in fleet management. Even though FPS has 
more than 100 enforcement vehicles than full-time officers, FPS 
was unable to provide the inspector general with a 
justification for neither the surplus nor its overall 
methodology in ordering vehicles for the fleet. In the D.C. 
region, 57 percent of the fleet vehicles' overall mileage that 
was given was considered home-to-work mileage, yet FPS could 
not provide sufficient justification to the inspector general 
for the approximately 1.2 million home-to-work miles driven in 
fiscal year 2014.
    The inspector general further observed some FPS vehicles 
did not contain the necessary equipment to fulfil its daily 
mission, including gas masks, protective suits, and rioting 
gear. In response to this particular finding, FPS stated that 
oftentimes equipment is unavailable and it sometimes takes 
several months for an officer to be fully stocked. Even more 
troubling is the inspector general's conclusion that the 
Department of Homeland Security does not sufficiently oversee 
FPS fleet management to ensure FPS complies with all Federal 
and Department guidelines. Neither the Department's fleet 
manager nor NPPD consistently review FPS' use of the GSA 
vehicle allocation methodology, nor do they review the 
justification for having additional law enforcement 
administrative vehicles, retaining underutilized vehicles, and 
adding discretionary upgrades. This lack of management resulted 
in FPS' overpaying GSA for law enforcement equipment packages.
    There is a critical linkage between the Department's 
operational effectiveness and critical National security 
missions, on the one hand, and the effective management of 
resources and requirements by DHS on the other. These findings 
demonstrate a culture--did demonstrate a culture of lack of 
management and disregard for resources that FPS grounded, in 
collection of fees from agencies occupying the Government's 
facilities. These lapses in oversight, accountability, and 
preparedness must be addressed and corrected.
    I look forward to hearing from each of you--as to Mr. Roth, 
your findings; and to Mr. Patterson and Mr. Chaleki, those 
improvement mechanisms and systems and accountability measures 
that put--you have in place. Thank you.
    Thank you, Mr. Chair. I yield back.
    [The statement of Mrs. Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                            December 3, 2015
    The Federal Protective Service, a subcomponent of the National 
Protection and Programs Directorate, provides integrated security and 
law enforcement services to more than 9,500 Federal facilities Nation-
wide.
    FPS fulfills a critical mission, one rooted in protecting essential 
infrastructure, Federal buildings, and its occupants.
    While the presence of FPS is imperative to the protection of 
Federal facilities, it is equally important that FPS performs its 
everyday functions in an efficient manner, with appropriate management 
oversight.
    Currently, FPS manages a vehicle fleet of approximately 1,100 
vehicles at a cost of $10.7 million dollars.
    These vehicles assist FPS officers in their coverage of Federal 
facilities and allow them to store and carry their essential law 
enforcement equipment.
    The Department of Homeland Security Office of the Inspector General 
recently investigated FPS' management of its vehicle fleet and 
concluded that FPS is not managing its vehicle fleet effectively, 
specifically citing expensive equipment packages, the overuse of sports 
utility vehicles, and a lack of consistent Department oversight and 
fleet management.
    Even though FPS has 100 more law enforcement vehicles than full-
time officers, FPS was unable to provide the inspector general with 
justifications for neither the surplus nor its overall methodology in 
ordering vehicles for the fleet.
    In the DC region, 57 percent of the vehicle fleet's overall miles 
driven are considered ``home-to-work'' mileage, yet FPS could not 
provide sufficient justification to the inspector general for the 
proximately 1.2 million home-to-work miles driven in fiscal year 2014.
    The inspector general further observed some FPS vehicles did not 
contain the necessary equipment to fulfill its daily mission, including 
gas masks, protective suits, and rioting gear.
    In response to this particular finding, FPS stated that oftentimes, 
equipment is unavailable and it sometimes takes several months for an 
officer to be fully stocked with all necessary equipment.
    Even more troubling is the inspector general's conclusion that the 
Department of Homeland Security does not sufficiently oversee FPS fleet 
management to ensure FPS complies with all Federal and Departmental 
guidelines.
    Neither the Department's Fleet Manager nor NPPD consistently review 
FPS' use of the GSA Vehicle Allocation Methodology nor do they review 
its justifications for having additional law enforcement administrative 
vehicles, retaining under-utilized vehicles, and adding discretionary 
upgrades to the vehicles.
    This lack of management resulted in FPS overpaying GSA for law 
enforcement equipment packages in error.
    There is a critical linkage between the Department's operational 
effectiveness in critical National security missions on the one hand, 
and effective management of resources and requirements by DHS leader on 
the other.
    These findings demonstrate a culture of lax management and 
disregard for resources at FPS, one grounded in the collection of fees 
from agencies occupying the Government facilities FPS protects.
    These lapses in oversight, accountability, and preparedness must be 
addressed and corrected.
    Director Patterson and Mr. Chaleki, I look forward to hearing from 
each of you today what the Department and FPS plans on doing to address 
the inspector general's findings, particularly as it relates to 
effective management of FPS resources.

    Mr. Perry. The Chair thanks the gentlewoman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            December 3, 2015
    After the 1995 domestic terrorist attacks on the Alfred P. Murrah 
Building in Oklahoma City, Oklahoma, there was broad recognition that 
Federal buildings, which are symbols of our democracy, must be 
protected against terrorist attacks while remaining accessible to 
citizens. In recent years, the increasing number of terrorist plots 
against diverse U.S. Government facilities in Illinois, Washington 
State, and New York City, as well as attacks on Government buildings in 
other Western democracies, such as Canada and Norway, has brought into 
focus the need to strengthen U.S. Federal building security.
    Unfortunately, the primary agency responsible for providing such 
security--the Federal Protective Service--has a range of long-standing 
administrative challenges that, to my mind, raise questions about its 
ability to provide adequate Federal building security. During my time 
on this committee, I have recognized the critical mission of the 
Federal Protective Service and have ensured that the committee has 
developed oversight and legislative mechanisms, such as the ``Federal 
Protective Service Improvement and Accountability Act of 2015,'' which 
is also cosponsored by the Ranking Member of this subcommittee, to 
address the some of the challenges FPS faces.
    At the center of today's hearing is another challenge at FPS--the 
management of the law enforcement agency's vehicle fleet. FPS currently 
has a fleet of 1,100 vehicles at a cost of $10.7 million. These 
vehicles are provided to FPS to allow the officers and investigators to 
store and carry equipment and other necessary protective gear.
    This October, the Department of Homeland Security Office of 
Inspector General found that FPS is not managing its vehicle fleet 
effectively. According to the IG, FPS has too many vehicles, they pay 
too much for the vehicles they lease, and FPS officers within the 
National Capital Region use their vehicles to commute without proper 
justification. The IG concluded that DHS does not sufficiently oversee 
FPS fleet management to ensure FPS complies with all Federal and 
Departmental guidelines.
    It is very disappointing to know that in certain instances, neither 
FPS nor DHS were keeping proper records of vehicle data such as mileage 
reports. Unfortunately, this is something we have heard one too many 
times from the Department. There is money being spent, resources being 
allocated, and needs purportedly being met, but little to no record-
keeping being in place. Director Patterson and Mr. Chaleki, when there 
is no record of where funds are going, it increases the likelihood of 
questions of waste, fraud, and abuse.
    While I understand that FPS and DHS have both concurred with the 
recommendations of the inspector general, I would like to hear more 
from both of you about how these recommendations are being implemented.
    Furthermore, since October 2014, when terrorists attacked 
government sites in Canada, FPS has been operating at an enhanced 
level, at the direction of DHS Secretary Jeh Johnson. FPS also 
increased its operations to protect Federal buildings during the trial 
of the Boston Marathon Bomber and during the recent Papal visit to the 
United States.
    I am also curious to know the impact of the increased tempo FPS's 
ability to address the fleet management issues raised in the inspector 
general's report. Each time FPS is directed to heighten security 
operations, new costs are incurred. FPS has no choice but to absorb 
those costs, often, I suspect, at the expense of addressing long-
standing administrative challenges, including vehicle fleet management.
    I look forward to hearing from the witnesses today on how FPS can 
move forward in this heightened threat environment and still address 
lapses in oversight and accountability.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statements will appear in the record. The Chair will introduce 
all of the witnesses first and then recognize each of you for 
your testimony.
    I just simply must note at this time--and, again, apologize 
for--I find it fascinating and somewhat ironic that we are here 
in a position of oversight to make sure that you maintain the 
standards, and we couldn't seem to maintain the standard of not 
wasting your time today. For that, and the rest of my 
colleagues, I do apologize.
    With that, the Honorable John Roth assumed the post of 
inspector general for the Department of Homeland Security in 
March 2014. Previously, Mr. Roth served as the director of the 
Office of Criminal Investigations at the Food and Drug 
Administration and as an assistant U.S. attorney for the 
Eastern District of Michigan.
    Welcome, Mr. Roth.
    Mr. L. Eric Patterson was appointed the director of Federal 
Protective Service, a subcomponent of the National Protection 
and Programs Directorate at the Department of Homeland Security 
in September 2010. Mr. Patterson previously served as the 
deputy director of the Defense Counterintelligence and HUMINT, 
Human Intelligence, Center at the Defense Intelligence Agency. 
Mr. Patterson is a retired United States Air Force brigadier 
general with 30 years of service.
    Sir, we acknowledge and thank you for your service.
    Mr. Thomas Chaleki is the deputy chief readiness support 
officer at the Department of Homeland Security. His office is 
responsible for integrating mission support functions, such as 
logistics, real property, and transportation among other areas 
across DHS components. Prior to his current position, Mr. 
Chaleki oversaw the integration of mission support functions at 
the U.S. Coast Guard. He recently retired from the Air Force 
Reserve with the rank of colonel.
    Sir, we also acknowledge and thank you for your service.
    Thank you for all being here today.
    The Chair recognizes Mr. Roth for his opening statement.

STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, OFFICE OF INSPECTOR 
         GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Good morning, Chairman Perry, Ranking Member 
Watson Coleman, and other Members of the subcommittee. Thank 
you for inviting me here to today to discuss our work on FPS.
    In February of this year, I testified before you and 
highlighted the significant challenges that the Department 
faces in attempting to exert some oversight over components 
within DHS. I stated that sometimes components simply disregard 
DHS policies, which hampers operations and leads to wasteful 
spending. I urged that DHS must strengthen its efforts to 
integrate management operations under a governing structure 
capable of effectively overseeing and managing programs that 
cross component lines. We have seen this in acquisition 
management, in radio interoperability, in DHS aircraft 
management, and in the DHS vehicle fleet.
    Our most recent audit is a perfect example of the problem. 
We identified significant issues regarding the management of 
the FPS vehicle fleet. As a result, FPS missed cost savings of 
more than $2.5 million out of a total expenditure of $10.7 
million. First, our audit found that FPS has more vehicles than 
justified. In fiscal year 2014, FPS had 100 more law 
enforcement vehicles than full-time law enforcement positions. 
This actually understates the issue because at the time, they 
had fewer officers employed than positions. The actual number 
of excess vehicles was about 260. FPS has not conducted an 
analysis to determine the number of spare vehicles it needs for 
the size of its fleet.
    In addition, FPS leased 32 administrative vehicles for 
mission support functions but has not justified leasing these 
vehicles as the most cost-effective option. FPS has not 
justified leasing vehicles larger and more expensive than 
necessary to support its mission. Ninety-three percent of FPS' 
total fleet were SUVs. SUVs, according to our analysis, cost 
about 15 percent more than sedans and are more expensive to 
operate. Contrary to Department policy, FPS did not formally 
validate its need for larger vehicles to meet mission 
requirements.
    Additionally, FPS officers appeared to use the vehicles to 
commute to and from work without justification. Nearly 57 
percent of the fleet's overall miles that are driven are 
commuting miles. In the National Capital Region, most officers 
are not required to respond to after-hours incidents because 
this region employs rotational shifts that are on duty 24 hours 
a day. Additionally, we found that officers erroneously 
reported on-duty activities as after-hour responses. This 
provided an inaccurate picture of actual after-hour responses 
and resulted in FPS using inaccurate and unreliable data to 
support its home-to-work reauthorization requests.
    Additionally, FPS did not accurately record the miles 
driven by their fleet. We compared FPS' internal records 
against those reported to the General Services Administration 
from which those vehicles were leased and found significant 
inaccuracies or incomplete information pertaining to total 
miles driven and home-to-work mileage. In fact, of the 192 
records, the sample that we collected, 189 of them had 
inaccurate or missing information, a 98 percent error rate. FPS 
has not properly justified the number, type, and use of its 
current fleet is necessary to carry out its mission and, 
therefore, is not in compliance with Federal law and Department 
requirements. We determined that 49 percent of FPS' leased 
vehicles showed fewer than 12,000 miles in fiscal year 2014, 
therefore, not meeting DHS' utilization policy. There is no 
documented justification for retaining them. Sadly, in June of 
this year, we notified FPS and the Department of a lack of 
justification for FPS' current vehicle fleet operation. 
Nevertheless, a little over a month after that notification, 
DHS proceeded with an order with GSA to replace about 16 
percent of FPS' vehicles, the majority of which were SUVs.
    We recognize that the Department has made significant 
improvements to fleet management and home-to-work 
transportation authorizations in particular. We commend the 
Department for taking these steps to address the need for 
rightsizing. But we believe additional actions may be necessary 
to improve its effectiveness. Without policies that afford 
fleet managers definitive and forceful authority, components 
will continue to operate as a business-as-usual mentality with 
no assurances that they are operating optimal fleets.
    Mr. Chairman, this concludes my prepared statements. I 
welcome any questions you or the other Members of the committee 
may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                            December 3, 2015
    Good morning Chairman Perry, Ranking Member Watson Coleman, and 
other distinguished Members of the subcommittee.
    Thank you for inviting me here today to discuss our work on the 
Federal Protective Service (FPS), a component of the National 
Protection and Programs Directorate (NPPD), and Department of Homeland 
Security (DHS) fleet management. Our most recent audit,\1\ as well as 
two previous audits, identified challenges with fleet management that 
DHS must improve to ensure FPS--and all other DHS components--use motor 
vehicle fleet compositions that most effectively and efficiently meet 
mission requirements.
---------------------------------------------------------------------------
    \1\ The FPS Vehicle Fleet Is Not Managed Effectively, OIG-16-02, 
October 2015.
---------------------------------------------------------------------------
    Our most recent audit identified the following issues:
  <bullet> FPS has too many vehicles, based on their workforce;
  <bullet> FPS pays too much for vehicles that they do have; and
  <bullet> FPS officers in the National Capital Region used their 
        vehicles to commute to and from home without proper 
        justification.
    As a result, FPS potentially missed cost savings of more than $2.5 
million out of a total expenditure of approximately $10.7 million.
    Although my testimony today will focus on our recent report on the 
FPS fleet, I will also discuss the Department's and NPPD's challenges 
in managing motor vehicle fleet operations.
    Within the Department, the DHS fleet manager is responsible for the 
primary, Department-level fleet management activities. However, the DHS 
fleet manager has provided insufficient oversight to ensure compliance 
with Federal and Departmental requirements for Home-to-Work vehicle use 
\2\ and annual Vehicle Allocation Methodology (VAM) reporting. Agencies 
use VAM to determine the correct allocation of vehicles for its staff, 
reduce fuel, and determine excess. This is partly because the DHS fleet 
manager does not have enforcement authority to influence component 
vehicle purchases. Since components receive funding for vehicle fleets 
in their individual operational budgets, they make independent 
decisions about the amount and type of vehicles needed to support their 
missions.
---------------------------------------------------------------------------
    \2\ Home-to-Work transportation is the use of Government passenger 
carriers (such as motor vehicles) to transport employees between their 
homes and places of work; it is a tool to meet mission requirements and 
enhance responsiveness to emergency situations.
---------------------------------------------------------------------------
                  fps had more vehicles than officers
    We reported that FPS had more vehicles than justified. In fiscal 
year 2014, FPS had 101 more law enforcement vehicles than full-time 
equivalent law enforcement positions. In addition to providing each law 
enforcement officer with a vehicle, FPS also provides spare vehicles to 
each region in the event that a vehicle is in need of repair or 
requires maintenance. FPS had not conducted an analysis to determine 
the number of spare vehicles needed for the size of its fleet.
    In addition, FPS did not have adequate justification for its 
administrative vehicles. FPS leased 32 administrative vehicles for 
mission support functions. The DHS Motor Vehicle Fleet Program Manual 
requires fleet managers to conduct an analysis of the feasibility and 
economy of using public transportation, taxicabs, car rental, dispatch 
or shared vehicle usage, or privately-owned vehicles in lieu of 
acquiring additional vehicles. However, we determined that FPS had not 
performed an analysis to ensure that leasing these administrative 
vehicles was the most cost-effective option. If FPS reduced its fleet 
by these spare law enforcement and administrative vehicles, it could 
potentially save more than $1 million annually.
             fps did not justify the use of larger vehicles
    FPS has not justified leasing vehicles larger than necessary to 
support its mission. In fiscal year 2014, the standard law enforcement 
vehicle FPS issued was an SUV. FPS' fleet consists of 1,059 SUVs--93 
percent of its total fleet. The NPPD Fleet Manual states that the class 
III midsize sedan is the preferred vehicle type, but allows exceptions 
when necessary to meet mission requirements. Although the Department 
allows exceptions, FPS did not formally validate its need for the 
larger vehicles to meet mission requirements.
    FPS management explained the decision to lease a larger vehicle was 
based on the assumption that SUVs provided a capability to store and 
carry the required law enforcement equipment such as a rifle, riot 
gear, and biochemical protective suit. However, we tested the storage 
capacity of a sedan and determined that it could also store the 
standard issued law enforcement equipment. Figure 1 shows the midsize 
sedan and SUV equipment capacity.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Additionally, we noted that FPS officers did not always store the 
equipment in their vehicles. Our test of 46 judgmentally-selected 
vehicles during normal duty hours found that most FPS officers did not 
have the majority of the equipment in their vehicles. If FPS had 
replaced all of its law enforcement SUVs with sedans, it could have 
potentially saved more than $1.1 million in fiscal year 2014.
     fps did not justify adding discretionary equipment to vehicles
    DHS policy requires fleet managers to consider the need, cost, and 
potential benefits for all non-standard equipment added to the vehicles 
such as lights, sirens, and prisoner cages. However, FPS added 
discretionary items such as a bike rack hitch, rechargeable flashlight, 
and premium wireless security system without documenting how the 
additional items would enhance FPS' ability to meet its mission 
requirements. Depending upon the discretionary equipment package 
selected, vehicle costs increased by anywhere from $12,000 to $20,000.
     fps did not justify the national capital region home-to-work 
                             transportation
    FPS cannot justify 1.2 million Home-to-Work miles self-reported by 
142 officers in fiscal year 2014 as essential for carrying out its 
mission. Nearly 57 percent of the fleet's overall miles driven are 
Home-to-Work and costs the National Capital Region on average about 
$300,000 per year. U.S. Code \3\ grants each Federal agency head the 
authority to determine which job positions are eligible to use Home-to-
Work transportation. The statute provides the DHS Secretary with the 
ability to authorize Home-to-Work for employees engaged in:
---------------------------------------------------------------------------
    \3\ Title 31 U.S.C.  1344.
---------------------------------------------------------------------------
  <bullet> fieldwork;
  <bullet> intelligence, counterintelligence, protective services, and 
        criminal law enforcement duties;
  <bullet> an emergency;
  <bullet> compelling operational consideration; and
  <bullet> clear and present danger.
    However, most officers in the region are not required to respond to 
after-hours incidents because this region employs rotational shifts for 
on-duty officers 24 hours a day. Additionally, we found that officers 
erroneously reported on-duty activities as after-hours responses. This 
provided an inaccurate picture of actual after-hours' responses and 
resulted in FPS using unreliable data to support its Home-to-Work 
reauthorization request.
       fps did not ensure vehicle data was complete and accurate
    FPS inputs monthly mileage into the GSA Mileage Express Drive-thru 
system to track and manage its fleet operations and monitor fleet 
costs, mileage, and fuel use. Additionally, FPS developed Vehicle 
Operations Reports (VOR) to capture monthly vehicle mileage, including 
Home-to-Work. FPS uses the VOR information together with the GSA Fleet 
Drive-thru system information to oversee its fleet program. However, 
based on our analysis of 192 VORs and corresponding GSA's Fleet Drive-
thru Express system data, we identified significant instances of 
inaccurate or incomplete information pertaining to total miles driven 
and Home-to-Work mileage.
               fps may be retaining nonessential vehicles
    FPS has not implemented a tool to properly justify that the number, 
type, and use of its current fleet is necessary to carry out its 
mission. GSA created the VAM to assist agencies in determining the 
right number and type of vehicles and eliminating unnecessary or 
nonessential vehicles. However, FPS did not complete its part of NPPD's 
overall VAM and therefore is not in compliance with Federal and 
Departmental requirements. We determined that 49 percent of FPS' leased 
vehicles showed fewer than 12,000 miles in fiscal year 2014, therefore 
not meeting DHS' utilization policy.
    According to DHS policy, if utilization guidelines are not met but 
users still request vehicles, a vehicle justification process should be 
in place and enforced as part of the component's VAM. However, we noted 
that FPS made undocumented, ad hoc fleet management decisions to 
determine vehicle needs. At the time of our audit, NPPD had not 
formally conducted a retention justification for under-utilized FPS 
vehicles.
    On June 9, 2015, we notified FPS, NPPD, and the Department of the 
lack of justification for FPS' current vehicle fleet composition. 
Nevertheless, on July 29, 2015, DHS proceeded with an order with GSA to 
replace approximately 16% of FPS vehicles--the majority of which are 
SUVs.
    In fact, our concerns about the lack of justification were 
justified. In an effort to comply with Federal requirements regarding 
identifying underutilized vehicles, DHS and NPPD administered a 
Utilization Retention Analysis Methodology in August 2015. The analysis 
identified that 19% of FPS vehicles are underutilized. Unfortunately, 
this information was not available in time to reinforce the OIG's 
concerns that renewing the lease for SUVs may not have been necessary.
  fps did not have standard operating procedures for fleet management
    FPS did not develop standard operating procedures requiring fleet 
managers to document and justify fleet management decisions. The NPPD 
Motor Vehicle Fleet Program Manual allows subcomponents such as FPS to 
establish additional requirements and internal controls specific to the 
agency. At the time of our review, FPS provided the OIG with a draft 
fleet management policy; however, it was not finalized and did not 
address the issues identified in our report. The FPS draft policy did 
not specify the standard vehicle type for law enforcement officers and 
did not include requirements for fleet managers to verify the accuracy 
of cost and vehicle usage data.
                          departmental action
    In recent years, we have made numerous recommendations for the 
Department to improve data reliability and strengthen oversight for 
fleet management. Specifically, we recommended the Under Secretary for 
Management, DHS:
  <bullet> implement a centralized system of record for fleet data;
  <bullet> develop policies to collect reliable data;
  <bullet> revise its Home-to-Work guidance; and
  <bullet> improve authority over component fleet managers' efforts to 
        acquire vehicles, right-size \4\ their fleets, and eliminate 
        underused vehicles.
---------------------------------------------------------------------------
    \4\ Right-sizing refers to the agency's efforts to maintaining the 
smallest, most efficient fleet to accomplish an agency's mission.
---------------------------------------------------------------------------
    In our latest report we again identified that the Department and 
NPPD fleet managers did not exercise proper oversight and authority 
over FPS fleet decisions. Without proper collaboration and oversight, 
the DHS Fleet Manager cannot manage the DHS fleet effectively, 
determine whether vehicles are needed and justified, and ensure that 
components remove underused vehicles from their fleets--and thereby 
operate the most cost-efficient fleet.
    We recognize that the Department has made significant improvements 
to fleet management and Home-to-Work transportation authorizations in 
particular. The Office of the Chief Readiness Support Officer (CRSO) 
issued interim guidance that provides clear definitions and guidelines 
for when Home-to-Work is authorized. In addition, the guidance 
increases oversight by requiring the Department to periodically review 
all existing, component-approved Home-to-Work transportation 
authorizations. CRSO also established, beginning in the first quarter 
of fiscal year 2015, a quarterly Home-to-Work transportation reporting 
process. The office collects data from the components and uploads it 
into the new Consolidated Asset Portfolio Sustainability Information 
System (CAPSIS). CAPSIS is a business intelligence tool used to 
aggregate asset management data for analysis and reporting.
    DHS and its components should continue to work together to ensure 
compliance with all Federal and Department requirements for managing 
fleets and Home-to-Work transportation. The Department's fleet manager, 
although not responsible for the day-to-day management of individual 
vehicle fleet programs, currently serves as the last level of review of 
fleet management decisions. According to the draft, updated DHS Motor 
Vehicle Fleet Program Manual, all vehicle acquisitions and lease 
agreements will be reviewed by CRSO.
                               conclusion
    The Department and NPPD fleet managers' challenges--including 
limited management and oversight, inaccurate data for decision making, 
and insufficient authority--have hindered their ability to right-size 
fleets as required. We reported that FPS does not have adequate fleet 
management policies and procedures, documented justifications for fleet 
size and composition, effective monitoring of $10.6 million in lease 
agreements to avoid overpayments, and accurate fleet data for decision 
making. As a result, FPS cannot ensure it is operating the most cost-
efficient fleet and potentially missed opportunities to save more than 
$2.5 million in fiscal year 2014. While we commend the Department for 
taking steps to address the need for right-sizing, we believe 
additional actions may be necessary to improve its effectiveness.
    Our recent review of FPS is merely one more example of the 
consequences that limited Departmental oversight and authority can have 
on a component's ability to manage its own vehicle fleet operation 
effectively. Without policies that afford fleet managers with 
definitive, enforceable authority, components will continue to operate 
with a ``business as usual'' mentality with no assurance that they are 
operating optimal fleets.
    Mr. Chairman, this concludes my prepared statement. I welcome any 
questions you or other Members of the subcommittee may have.
        Appendix A.--Recent OIG Reports on DHS Fleet Management
    DHS Home-to-Work Transportation, OIG-14-21, December 2013.
    DHS Does Not Adequately Manage or Have Enforcement Authority Over 
Its Components' Vehicle Fleet Operations, OIG-14-126, August 2014.
    The FPS Vehicle Fleet Is Not Managed Effectively, OIG-16-02, 
October 2015.

                         APPENDIX B.--STATUS OF RECOMMENDATIONS FOR OIG REPORTS ON DHS FLEET MANAGEMENT AS OF NOVEMBER 18, 2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
            Report No.                    Report Title           Date Issued             Recommendation            Current Status       Mgmt. Response
--------------------------------------------------------------------------------------------------------------------------------------------------------
OIG 14-21........................  DHS Home-to-Work                    12/20/13  We recommend that the Under    Closed.............  Agreed.
                                    Transportation.                               Secretary for Management
                                                                                  strengthen the DHS Manual
                                                                                  112-05-001 Home-to-Work
                                                                                  Transportation with clear
                                                                                  definitions and guidelines
                                                                                  for eligibility to
                                                                                  participate and establishing
                                                                                  guidance for periodic
                                                                                  reauthorization of all
                                                                                  approved Home-to-Work
                                                                                  authorizations.
OIG 14-21........................  DHS Home-to-Work                    12/20/13  We recommend that the Under    Closed.............  Agreed.
                                    Transportation.                               Secretary for Management
                                                                                  implement policies to ensure
                                                                                  components collect reliable
                                                                                  information necessary to
                                                                                  track, monitor, analyze, and
                                                                                  report on Home-to-Work
                                                                                  transportation use and costs.
OIG 14-21........................  DHS Home-to-Work                    12/20/13  We recommend that the Under    Closed.............  Agreed.
                                    Transportation.                               Secretary for Management
                                                                                  enforce the DHS Manual 112-
                                                                                  05-001 Home-to-Work
                                                                                  Transportation annual
                                                                                  reporting requirement.
OIG 14-21........................  DHS Home-to-Work                    12/20/13  We recommend that the Under    Closed.............  Agreed.
                                    Transportation.                               Secretary for Management
                                                                                  perform a thorough
                                                                                  assessment of the Home-to-
                                                                                  Work transportation program
                                                                                  annually to validate the
                                                                                  accuracy and completeness of
                                                                                  the information reported,
                                                                                  component monitoring
                                                                                  efforts, compliance with DHS
                                                                                  guidance, and Home-to-Work
                                                                                  transportation participant
                                                                                  eligibility.
OIG 14-21........................  DHS Home-to-Work                    12/20/13  We recommend that the Under    Open...............  Agreed.
                                    Transportation.                               Secretary for Management
                                                                                  implement a centralized,
                                                                                  Department-wide, Home-to-
                                                                                  Work data system, accessible
                                                                                  by headquarters and
                                                                                  component personnel, to
                                                                                  collect, track, and monitor
                                                                                  Home-to-Work transportation-
                                                                                  related information, such as
                                                                                  authorizations, costs,
                                                                                  vehicle use, and number of
                                                                                  users.
OIG-14-126.......................  DHS Does Not Adequately              8/21/14  We recommend that the Under    Open...............  Agreed.
                                    Manage or Have                                Secretary for Management
                                    Enforcement Authority                         ensure that the DHS Fleet
                                    Over Its Components'                          Manager has adequate
                                    Vehicle Fleet Operations.                     oversight and the necessary
                                                                                  enforcement authority over
                                                                                  component fleet managers'
                                                                                  efforts to acquire vehicles,
                                                                                  right-size their fleets, and
                                                                                  eliminate underused
                                                                                  vehicles. We estimate that,
                                                                                  in fiscal year 2012,
                                                                                  underused vehicles cost CBP,
                                                                                  ICE, and NPPD between $35.3
                                                                                  million and $48.6 million,
                                                                                  which are funds that could
                                                                                  be put to better use in
                                                                                  future fiscal years.
OIG-14-126.......................  DHS Does Not Adequately              8/21/14  We recommend that the Under    Open...............  Agreed.
                                    Manage or Have                                Secretary for Management
                                    Enforcement Authority                         implement a single,
                                    Over Its Components'                          centralized system of record
                                    Vehicle Fleet Operations.                     for the Department's motor
                                                                                  vehicle fleet to improve
                                                                                  visibility, identify data
                                                                                  gaps and inconsistencies,
                                                                                  and facilitate collection of
                                                                                  vehicle inventory, cost, and
                                                                                  usage data.
OIG-16-02........................  The FPS Vehicle Fleet Is            10/21/15  We recommend that the Under    Open...............  Agreed.
                                    Not Managed Effectively.                      Secretary for Management
                                                                                  require NPPD Fleet Manager
                                                                                  to review and revise NPPD's
                                                                                  Fleet Manual and ensure it
                                                                                  outlines specific procedures
                                                                                  for: (1) FPS to monitor and
                                                                                  document fleet acquisition
                                                                                  and leasing decisions and
                                                                                  regularly report fleet
                                                                                  expenditures to NPPD; and
                                                                                  (2) NPPD's process for
                                                                                  verifying the completeness
                                                                                  and accuracy of motor
                                                                                  vehicle records.
OIG-16-02........................  The FPS Vehicle Fleet Is            10/21/15  We recommend that the Under    Open...............  Agreed.
                                    Not Managed Effectively.                      Secretary for Management
                                                                                  require DHS Office of the
                                                                                  Chief Readiness Support
                                                                                  Officer (CRSO) to develop
                                                                                  and administer a
                                                                                  standardized Vehicle
                                                                                  Allocation Methodology for
                                                                                  all components annually, as
                                                                                  required by Federal laws,
                                                                                  regulations, and Executive
                                                                                  Orders, including FMR B-30,
                                                                                  Vehicle Allocation
                                                                                  Methodology for Agency
                                                                                  Fleets. As part of this
                                                                                  recommendation, component
                                                                                  results should be reviewed
                                                                                  and approved by CRSO to
                                                                                  ensure DHS maintains an
                                                                                  optimal fleet.
OIG-16-02........................  The FPS Vehicle Fleet Is            10/21/15  We recommend that the Under    Open...............  Agreed.
                                    Not Managed Effectively.                      Secretary for Management, in
                                                                                  coordination with the DHS
                                                                                  Office of the Chief
                                                                                  Readiness Support Officer
                                                                                  (CRSO), provide additional
                                                                                  oversight and review
                                                                                  component vehicle
                                                                                  acquisitions, to identify
                                                                                  future potential savings of
                                                                                  about $2,519,077, that
                                                                                  include:
                                                                                 - all lease submissions
                                                                                 - mission need and
                                                                                  justifications for vehicle
                                                                                  types
                                                                                 - Home-to-Work use of
                                                                                  vehicles
                                                                                 - CRSO approval authority
                                                                                  prior to final submissions
OIG-16-02........................  The FPS Vehicle Fleet Is            10/21/15  We recommend that the Under    Open...............  Agreed.
                                    Not Managed Effectively.                      Secretary for Management
                                                                                  ensures FPS formally
                                                                                  documents and validates
                                                                                  fleet management decisions
                                                                                  regarding their planned
                                                                                  fiscal year 2016 lease
                                                                                  agreement.
OIG-16-02........................  The FPS Vehicle Fleet Is            10/21/15  We recommend that the Under    Open...............  Agreed.
                                    Not Managed Effectively.                      Secretary for Management
                                                                                  requires FPS to review GSA
                                                                                  lease agreements for all
                                                                                  vehicles replaced from
                                                                                  fiscal year 2012 to present
                                                                                  and determine whether FPS
                                                                                  overpaid $35,031 for law
                                                                                  enforcement upgrades, and as
                                                                                  appropriate, request GSA
                                                                                  refund overpayments for all
                                                                                  law enforcement upgrades.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Mr. Perry. The Chair thanks Mr. Roth.
    The Chair now recognizes Mr. Patterson for your statement.

 STATEMENT OF L. ERIC PATTERSON, DIRECTOR, FEDERAL PROTECTIVE 
         SERVICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Patterson. Good morning.
    Thank you, Chairman Perry and Ranking Member Watson Coleman 
and distinguished Members of the committee. My name is Eric 
Patterson. I am the director of the Federal Protective Service. 
I am honored to testify today regarding the management and 
operations of the FPS vehicle fleet. FPS is charged with 
protecting and delivering integrated law enforcement and 
security services to more than 9,500 Federal facilities Nation-
wide and safeguarding more than 1.4 million daily occupants and 
visitors. As the committee is undoubtedly aware, 2015 has been 
a very operationally active year for our organization, 
necessitating heavy use of our fleet. On October 28, 2014, in 
response to continued calls for attacks on the homeland, 
military, and law enforcement personnel and other Government 
officials from ISIS and other terrorist organizations, 
Secretary Johnson initiated Operation Blue Surge, directing the 
Federal Protective Service to enhance its presence and security 
at Federal facilities Nation-wide. FPS has sustained and 
enhanced operational tempo ever since. Additionally, FPS 
responded to other sensitive events and incidents throughout 
the year, including civil unrest in Ferguson, Missouri, and 
Baltimore, Maryland, and the trial of the Boston Marathon 
bomber, shootings at military recruiting stations in 
Chattanooga, Tennessee, and the active-shooter incidents in 
Suitland, Maryland, and Lower Manhattan where two FPS contract 
protective security officers lost their lives in the line of 
duty.
    The Federal Protective Service appreciates the recent work 
of the Department of Homeland Security Office of the Inspector 
General in conducting a review of the administration of the FPS 
vehicle fleet and for recommending additional steps we take to 
manage our fleet more effectively. While at the conclusion of 
the review, the IG did not issue any recommendations to FPS 
directly or direct FPS to make changes to the total number of 
or vehicle types in its inventory, the report did conclude that 
FPS could and should improve its vehicle fleet management 
program. Specifically, the report recommended that DHS and NPPD 
work with FPS to review an existing vehicle lease agreement 
with GSA, formally document and validate fleet management 
decisions regarding an upcoming lease agreement, and ensure 
compliance with Federal laws, regulations, and asset management 
best practices. We take the recommendations of this report very 
seriously and are working with DHS and NPPD fleet managers to 
help develop policies to control associated fleet costs while 
meeting our law enforcement mission requirements. In fact, new 
procedural updates have already been developed to address the 
recommendations identified in the recent OIG report and will 
help to ensure robust oversight of the Department's vehicle 
fleet going forward.
    Specifically in response to the IG's recommendation, FPS 
implemented a comprehensive fleet management directive on 
August 27, 2015. The directive provides for an effective and 
efficient fleet management program and establishes standard 
methodology for fleet acquisition, leasing, and management 
oversight. Additionally, FPS has finalized a methodology for 
spare vehicle management to better document and validate that 
the number and type of spare vehicles on hand at any given time 
are appropriate given mission needs. FPS will continue to work 
with NPPD to develop and implement a formal process to document 
and validate fleet management decisions to ensure alignment 
with NPPD and DHS values.
    The Department is also modernizing its vehicle allocation 
methodology, which will help to validate the efficient use of 
vehicles Department-wide in order to better meet the essential 
mission of protecting and securing our homeland in an ever-
evolving and complex threat environment. Further, the 
Department is revising its motor vehicle fleet management 
instruction in order to enhance Department-level oversight of 
its motor vehicle program, for example, by requiring mandatory 
reviews of all motor vehicle acquisitions.
    Finally, in order to resolve the IG's concerns regarding 
potential overpayments, FPS and GSA are working together to 
ensure a common understanding of leasing arrangements and 
billing processes so that future decisions provide the best 
value to the American people. I am confident that our 
collective efforts will result in improved documentation, 
decision making, and management oversight of the FPS vehicle 
fleet. In closing, I would like to acknowledge and thank the 
distinguished Members of this committee for the opportunity to 
testify today. The Federal Protective Service remains committed 
to utilizing sound management practices in support of its 
mission to provide safety, security, and a sense of well-being 
to the thousands of visitors and Federal employees who work and 
conduct business in our facilities every day.
    I would be pleased to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Patterson follows:]
                Prepared Statement of L. Eric Patterson
                            December 3, 2015
    Thank you Chairman Perry, Ranking Member Watson Coleman, and the 
distinguished Members of the committee. I am honored to testify today 
regarding the management and operations of the Federal Protective 
Service (FPS) vehicle fleet.
                                mission
    FPS is charged with protecting and delivering integrated law 
enforcement and security services to more than 9,500 Federal facilities 
Nation-wide and safeguarding their more than 1.4 million daily 
occupants and visitors.
                            fps authorities
    In performing this mission, FPS relies on the law enforcement and 
security authorities found in Title 40 United States Code  1315, 
agreements with State and local law enforcement agencies for purposes 
of protecting Federal property, Federal regulations pertinent to 
conduct on Federal property, and our responsibility as the recognized 
``first responder'' for all crimes and suspicious activity occurring on 
GSA owned or leased property.
                     fps law enforcement personnel
    FPS directly employs more than 1,000 officers, inspectors, and 
special agents who are trained physical security experts and sworn 
Federal law enforcement officers. FPS law enforcement personnel perform 
a variety of critical functions, including conducting comprehensive 
security assessments to identify vulnerabilities at facilities, 
developing and implementing protective countermeasures, providing 
uniformed police response and investigative follow-up to crimes and 
threats, and other law enforcement activities in support of our 
protection mission.
                      fps vehicle fleet operations
    One of the most important tools our law enforcement officers have 
in performing their duties is their law enforcement vehicle. In fact, 
in 2015, FPS law enforcement officers drove over 9.5 million miles to 
respond to over 80,000 incidents and events and provide protective 
services to our tenant agencies. It should also be noted that FPS K-9 
teams are routinely requested to assist State, local, and other 
jurisdictions with sweeps for suspicious packages and potential 
explosive devices.
    FPS mission requirements, as well as our unwavering commitment to 
officer safety, drive decisions regarding the number, type, assignment 
location, and up-fitting of the vehicles in our fleet.
    We are tasked with protecting Federal facilities in all 50 States 
and U.S. Territories, including Alaska, Hawaii, Puerto Rico, the U.S. 
Virgin Islands, Guam, Saipan, and American Samoa. Accordingly, FPS must 
operate in environments ranging from the rural Mountain West, where an 
officer might be required to travel alone for hours in exigent weather 
and road conditions, to urban Philadelphia, where our officers 
regularly utilize their vehicles to help redirect the flow of traffic 
around active crime scenes or high-profile National Special Security 
Events (NSSEs), such as the recent Papal visit.
    In order for FPS to meet its mission requirements for the security 
of 9,500 geographically-dispersed Federal facilities, FPS assigns 1 
vehicle to each of its approximately 1,000 law enforcement officers to 
facilitate timely and effective response to incidents or other 
emergency situations, such as NSSEs and crimes at Federal facilities. 
Each vehicle is appropriately equipped to assure officer and public 
safety, and the capability to transport mission critical gear, 
including a gun vault, rifles and other firearms, a first aid kit, and 
a biochemical protective suit, for use in diverse and exigent 
circumstances.
    Additionally, because FPS law enforcement responds to emergencies 
at all hours, and given that areas of responsibility are geographically 
vast and duty stations of record are not necessarily centrally located, 
the Secretary has also authorized home-to-work transportation authority 
for FPS law enforcement officers. This authority helps ensure that FPS 
law enforcement personnel are ready and properly equipped to respond to 
emergency incidents during off-duty hours.
    Finally, the number of spare vehicles is based on a variety of 
factors, including on-boarding of new law enforcement officers, 
geography, the need for special purpose vehicles such as K-9 units, 
scheduled maintenance, unscheduled maintenance and repairs, and 
unscheduled replacements.
    For example, 4 FPS law enforcement officers secure 50 Federal 
facilities in the State of Hawaii. However, given challenges related to 
vehicle maintenance, repair, and replacement on the Hawaiian islands, 
FPS has assigned 5 vehicles to the State. As is the case with all law 
enforcement agencies with first responder responsibilities, in the 
event that a law enforcement vehicle breaks down and cannot be quickly 
placed back into service, a spare vehicle is required to assure mission 
readiness.
                             fps operations
    As the committee is undoubtedly aware, 2015 has been a very 
operationally active year for our organization, necessitating heavy use 
of our fleet.
    On October 28, 2014, in response to continued calls for attacks on 
the homeland, military, and law enforcement personnel, and other 
Government officials by ISIS and other terrorist organizations, 
Secretary Johnson initiated Operation Blue Surge, directing the Federal 
Protective Service to enhance its presence and security at Federal 
facilities Nation-wide. FPS has sustained an enhanced operational tempo 
since.
    Additionally, FPS responded to other sensitive events and incidents 
throughout the year, including the civil unrest in Ferguson, MO and 
Baltimore, MD, the trial of ``Boston Marathon Bomber'' Dzhokhar 
Tsarnaev, shootings at military recruiting stations in Chattanooga, TN, 
and the active-shooter incidents in Suitland, MD and lower Manhattan, 
where two FPS contract Protective Security Officers lost their lives in 
the line of duty.
                      fps vehicle fleet management
    Today, the FPS fleet consists of 1,180 vehicles, including 981 law 
enforcement sport utility vehicles (SUVs), 82 specialized K-9 vehicles, 
56 law enforcement sedans, and 29 administrative vehicles. Ninety-seven 
percent of vehicles in the FPS fleet are leased through an agreement 
with the General Services Administration (GSA). Prior to leasing, all 
FPS fleet requirements must be validated by DHS and the National 
Protection and Programs Directorate and the make and model selected 
annually from the law enforcement vehicles available in the GSA Federal 
Supply Schedule.
    FPS pays GSA an average monthly base rate for vehicles, and the 
overall monthly cost per vehicles is determined by the base rate, the 
monthly mileage charge, and costs associated with law enforcement 
equipment up-fit.
    The FPS Administrative Services Division is responsible for 
ensuring that FPS is equipped with the number and type of vehicles 
necessary to meet the requirements of the FPS mission. Additionally, 
this team ensures that the FPS fleet is managed in accordance with the 
FPS Fleet Management Directive, the NPPD Motor Vehicle Fleet Program 
Manual, the DHS Motor Vehicle Fleet Program Manual, and sound law 
enforcement operations and asset management principles.
                            dhs oig findings
    The Federal Protective Service appreciates the recent work of the 
Department of Homeland Security Office of the Inspector General in 
conducting a review of the administration of the FPS vehicle fleet and 
for recommending additional steps we can take to manage our fleet more 
effectively.
    While at the conclusion of the review, the IG did not issue any 
recommendations to FPS directly or direct FPS to make changes to the 
total number or type of vehicles in its inventory, the report did 
conclude that FPS could, and should, improve its vehicle fleet 
management program.
    Specifically, the report recommended that DHS and NPPD work with 
FPS to review an existing vehicle lease agreement with GSA, formally 
document and validate fleet management decisions regarding an upcoming 
lease agreement, and ensure compliance with Federal laws, regulations, 
and Executive Orders related to Federal asset management and asset 
management best practices.
    We take the recommendations seriously and are working with the DHS 
and NPPD fleet managers to help develop policies to control associated 
fleet costs while meeting mission requirements.
                        addressing oig findings
    New procedural updates have already been developed to address the 
recommendations identified in the recent OIG report and will help to 
ensure the robust oversight of Department's vehicle fleet going 
forward.
    In response to the IG's recommendations, FPS implemented a 
comprehensive fleet management directive on August 27, 2015. This 
directive provides for an effective and efficient fleet management 
program and has established standard methodology for fleet acquisition, 
leasing, and management oversight.
    In response to the IG's recommendation to eliminate SUVs in favor 
of a sedan-based fleet, FPS conducted a cost analysis of the two 
options. Because sedan up-fit costs are amortized over a 36-month lease 
and an SUV up-fit is amortized over a 60-month lease, the analysis 
showed a sedan would cost more than an SUV.
    Additionally, FPS has finalized a methodology for spare vehicle 
management to better document and validate that the number and type of 
spare vehicles on hand at any given time are appropriate given mission 
needs. FPS will continue to work with NPPD to develop and implement a 
formal process to document and validate fleet management decisions to 
ensure alignment with NPPD and DHS guidance. FPS is working to 
incorporate capability requirements documentation for all vehicle fleet 
assets by the end of this calendar year.
    The Department is also modernizing its Vehicle Allocation 
Methodology which will help validate efficient use of vehicles 
Department-wide in order to better meet the essential mission of 
protecting and securing our homeland in an ever-evolving and complex 
threat environment. The DHS chief readiness support officer expects to 
implement the results of this cooperative endeavor by early fiscal year 
2017. In the interim, FPS will utilize recently-developed NPPD use and 
retention methodology, which was approved on October 31, 2015, to 
review and validate vehicle replacement acquisition orders.
    Further, the Department is revising its Motor Vehicle Fleet 
Management Instruction in order to enhance Department-level oversight 
of its motor vehicle program--for example, by requiring mandatory 
reviews of all motor vehicle acquisitions. The Department expects to 
issue interim guidance regarding these changes this calendar year.
    Finally, in order to substantiate the IG's concerns regarding 
potential overpayments, FPS conducted a thorough review of our lease 
agreements with GSA dating back to 2007. FPS and GSA are working 
together to ensure a common understanding of leasing arrangements and 
billing processes so that future decisions provide the best value to 
the American people.
    I am confident our collective efforts will result in improved 
documentation, decision making, and management oversight, and we 
anticipate submitting 4 of the 5 recommendations to the IG for closure 
within the next 3 to 4 weeks.
               commitment to securing federal facilities
    In closing, I would like to acknowledge and thank the distinguished 
Members of this committee for the opportunity to testify today. The 
Federal Protective Service remains committed to utilizing sound 
management practices in support of its mission to provide safety, 
security, and a sense of well-being to the thousands of visitors and 
Federal employees who work and conduct business in our facilities every 
day.
    I would be pleased to answer any questions you may have

    Mr. Perry. Thank you, Mr. Patterson.
    The Chair now recognizes Mr. Chaleki for his opening 
statement.

  STATEMENT OF THOMAS CHALEKI, DEPUTY CHIEF READINESS SUPPORT 
 OFFICER, MANAGEMENT DIRECTORATE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Chaleki. Good morning, Chairman Perry, Ranking Member 
Watson Coleman, and Members of the committee. Thank you for the 
opportunity to appear before you today.
    I am Tom Chaleki. I have been the deputy chief readiness 
support officer for almost 4 years. Our office is responsible 
for policy and oversight of all DHS real property, mission 
support operations within the National Capital Region, 
environment and sustainability, personal property, and mobile 
assets, to include aviation and marine assets and the motor 
vehicle fleet. I assumed control of the vehicle program almost 
a year ago when we established the Office of Assets and 
Logistics.
    I take a Department-wide view of mission support and 
oversight of the DHS vehicle fleet. For a law enforcement 
agency like DHS, properly maintained and equipped vehicles 
provided in sufficient numbers are the tools of the trade. DHS 
has the second-largest Cabinet-level fleet, with over 56,000 
vehicles at its peak in 2011. Only the Department of Defense 
fleet is larger. From its peak, the fleet has been steadily 
reduced every year to where it is today at 52,000. This 8 
percent reduction is largely attributed to the development and 
implementation of a Department-wide vehicle allocation 
methodology, or VAM, in 2012. This helped established a vehicle 
fleet baseline and started us on the process of rightsizing the 
fleet.
    Upon assuming overall responsibility of the fleet program, 
it was clear to me we needed to strengthen our policies and 
improve oversight of the DHS fleet program. To accomplish this, 
we first needed a clear picture of how many and what types of 
vehicle we have, how they were being used, and how they support 
the DHS mission. This required us to focus on three things: 
First, timely, reliable, transparent data; second, strengthened 
policy guidance; and, finally, clear business processes for the 
roles, responsibilities, and authorities of each level of the 
Department are understood.
    Regarding improved data collection, our office has 
implemented a single, centralized system of record for the 
Department's vehicle fleet to our Consolidated Asset Portfolio 
and Sustainment Information System, or CAPSIS. This system, 
which is essentially a data warehouse, consolidates information 
directly from existing component information systems and 
provides the fleet management team with important information, 
such as vehicle inventory, cost, and utilization. Each 
component is required to summit updated information monthly.
    The Chief Readiness Support Office is responsible for 
developing and distributing fleet policy to the components, who 
have the delegated authority to administer their motor vehicle 
fleet programs subject to the direction, oversight, and 
policies issued by the Department. To clarify and strengthen 
the DHS fleet manager's authority and ability to ensure 
compliance with Departmental guidance, we substantially revised 
both the DHS Fleet Instruction Manual and the Home-to-Work 
Instruction Manual. Improvements include more frequent and more 
accurate data collection; review and approval by our office of 
all vehicle leases and purchases; and stronger justifications 
for home-to-work authorizations. These revised instructions 
form the foundation to improve and clarify the roles, 
responsibilities, and authorities throughout the vehicle 
program. In addition, we will carry out a new Vehicle 
Allocation Methodology in 2017 which, when coupled with our 
improved data collection, will allow us to further right-size 
the DHS fleet and better control costs. We have also collected 
a year of quarterly home-to-work data which enables the 
Department to better implement, monitor, and improve the fair 
and efficient use of home-to-work transportation throughout the 
enterprise.
    As we go forward with oversight for the DHS vehicle fleet, 
there are two challenges to consider. First, each component has 
a unique mission and, therefore, employs and operates their 
respective fleets differently. A Border Patrol Agent monitoring 
the Southwest Border uses his or her vehicle very differently 
than an ICE agent performing an undercover operation or an FPS 
agent responding to an incident at a Federal facility. I am 
charged with the responsible oversight of the DHS vehicle fleet 
at an enterprise level but must always be cognizant of the 
mission needs at the component and unit level.
    Second, we cannot allow ourselves to focus exclusively on 
fleet reductions as an end in themselves. Our attention has to 
be on right-sizing the fleet; that is, providing the minimum 
number and appropriate type of vehicles needed to perform the 
mission. This relies on first understanding and then meeting 
component mission requirements.
    With those challenges in mind, we continue to look forward 
and improve the management of the DHS vehicle fleet in a number 
of ways. For example, I see tremendous opportunity in our 
vehicle telematics initiative on the Southwest Border where, 
beginning this year, we will start automatically receiving 
timely, accurate vehicle diagnostic information, fuel 
consumption data, and utilization on over 17,000 vehicles. This 
information will be sent every time one of our vehicles fuels 
at one of our 68 upgraded fueling stations on the Southwest 
Border. While it is clear we still have work to do, by working 
together and identifying and collaborating on best practices, I 
am confident we are headed in the right direction. Thank you 
for the opportunity to testify today. I look forward to 
answering your questions.
    [The prepared statement of Mr. Chaleki follows:]
                  Prepared Statement of Thomas Chaleki
                            December 3, 2015
    Thank you Chairman Perry, Ranking Member Watson Coleman, and 
Members of the committee for the opportunity to provide an update on 
the Department of Homeland Security's (DHS) motor vehicle fleet program 
and the progress we've made towards improving the management and 
oversight of this important program.
    I have been the deputy chief readiness support officer for almost 4 
years and assumed control of the vehicle program almost a year ago when 
we established the Office of Assets and Logistics. Prior to my time at 
DHS headquarters, I served in various mission support roles with the 
Coast Guard Headquarters, and recently-retired as a civil engineer in 
the U.S. Air Force Reserve. Today, I will discuss the Department's 
efforts to improve the management of our motor vehicle fleet, and 
provide an overview of the DHS motor vehicle inventory and initiatives 
to right-size the fleet. I will also address the progress to date in 
improving our management and oversight of the motor vehicle program and 
show how we are responding to the DHS Inspector General's findings and 
recommendations from three separate reports related to the DHS vehicle 
fleet. DHS concurred with each of the recommendations in these reports 
and is actively working towards their resolution.
    DHS was established as a cabinet-level agency over 13 years ago and 
motor vehicles are an important tool in supporting the Department's 
missions. Whether it's a Border Patrol agent protecting the Southwest 
Border, an ICE agent conducting an investigation or an FPS agent 
responding to an incident at a Federal facility, they each rely on a 
properly-equipped motor vehicle to successfully carry out their 
responsibilities. In 2005, DHS components were operating approximately 
38,000 motor vehicles. As the DHS mission and related responsibilities 
expanded, the motor vehicle fleet also experienced significant growth 
of over 45 percent, peaking at just over 56,000 motor vehicles in 2011.
    The chief readiness support officer is delegated the authority to 
oversee and manage the DHS motor vehicle program. In 2012, GSA issued 
guidance requiring Federal agencies to develop and implement a Vehicle 
Allocation Methodology (VAM). The VAM is a tool used to help agencies 
determine their optimal fleet size. The Office of the Chief Readiness 
Support Officer (OCRSO) successfully completed its first VAM in 2012 
which allowed the Department to establish an overall vehicle fleet 
baseline. The Department then started the process of right-sizing the 
motor vehicle fleet either through the elimination of unnecessary 
vehicles or ensuring that new vehicle acquisitions were of the proper 
type for the required mission.
    The DHS motor vehicle fleet is the second-largest civilian motor 
vehicle fleet in the Federal Government but has been reduced nearly 8 
percent since the fleet inventory numbers peaked in 2011. The current 
DHS fleet consists of Government-owned and leased vehicles. Of the 
Department's vehicles, 84 percent are Government-owned and 16 percent 
are leased. In addition to decreasing the number of motor vehicles by 8 
percent, DHS has increased the percentage of alternative fueled 
vehicles from 25 percent in 2010 to 39 percent in 2014.
    DHS has a decentralized approach to fleet management. OCRSO 
develops and distributes fleet policy through the ``DHS Motor Vehicle 
Fleet Program Manual'' to components, who all have delegated authority 
to administer their motor vehicle fleet programs subject to the 
direction, oversight, and policies issued by the Department. OCRSO 
issued motor vehicle program policy to components in 2011. To further 
clarify and improve the DHS fleet manager's authority and ability to 
ensure compliance with Departmental guidance, as well as meet a 
recommendation of the inspector general, OCRSO recently rewrote both 
the DHS Fleet Instruction and the Home-to-Work Instruction. These 
instructions are currently in the Department's review and clearance 
process. These revised documents help strengthen the Department's 
oversight responsibilities and increase components' requirements to 
collaborate and gain Departmental approval for all vehicle 
acquisitions. Additionally, the draft instructions include requirements 
that will ensure compliance with the latest Executive Orders, the most 
recent being Executive Order 13693, ``Planning for Federal 
Sustainability in the Next Decade,'' issued in March 2015.
    Since 2012, OCRSO has developed and fielded a Department-wide fleet 
management data system to ensure visibility of each components motor 
vehicle data. This data system consolidates component motor vehicle 
inventory, cost, and usage data into a single database which is then 
incorporated into the Consolidated Asset Portfolio and Sustainment 
Information System (CAPSIS). Each component provides monthly data 
updates. The availability of this data provides the DHS fleet 
management team greater visibility into each component's fleet and 
makes right-sizing more transparent. Further, the system also 
facilitates collection of vehicle inventory, cost, and usage data.
    This fiscal year the Department plans to implement policy that 
requires mandatory OCRSO review of all component motor vehicle 
acquisitions prior to order submission. Currently, OCRSO does review 
and approve all component GSA lease submissions but does not have 
visibility of component direct vehicle purchases. Additionally, 
beginning in fiscal year 2017 OCRSO will develop and administer a 
standardized Vehicle Allocation Methodology (VAM) for all components 
annually.
    Home-to-Work transportation is a flexible and powerful tool for 
meeting mission requirements and enhancing the overall responsiveness 
to emergency situations and is an area where the Department has acted 
on the inspector general's recommendations--for example, in fiscal year 
2015 OCRSO conducted a review of all component home-to-work 
authorizations resulting in Secretary approval, CRSO established a 
system that now collects quarterly component home-to-work data and the 
Home-to-Work Manual was revised and strengthened. 31 U.S.C  1344 
allows Government passenger carrier usage for transportation between 
residence and place of employment for senior officials such as the 
President, Vice President, the Commandant of the Coast Guard, and other 
officials designated by the President, which includes the Secretary of 
Homeland Security. The statute also allows the heads of certain 
agencies listed in 5 U.S.C. 5312, which includes the Secretary of 
Homeland Security, to authorize Home-to-Work transportation for a 
principal deputy. Home-to Work transportation may also be authorized by 
the Secretary when transportation between the residence of an employee 
and various locations is essential for the safe and efficient 
performance of intelligence, counterintelligence, protective services, 
or criminal law enforcement duties, and when it is required for the 
performance of field work and which will substantially increase the 
efficiency and economy of the Government, or when there exists a clear 
and present danger, an emergency, or a compelling operational 
consideration.
    The under secretary for management directed all components to 
conduct a thorough review of their home-to-work programs from a risk-
based methodology standpoint and following that analysis, submit a 
request for Secretarial approval of their home-to-work requirements. 
Each component submission was then subsequently reviewed by the DHS 
home-to-work program manager, OCRSO and management senior staff, and 
the Office of the General Counsel. The result is that each home-to-work 
authorization was justified and approved for only 1 year instead of the 
normal 2 years to allow the Department to analyze a full year of 
vehicle data.
    In addition to this enterprise-wide review and analysis of the 
Department's use of home-to-work, OCRSO developed and fielded a 
centralized home-to-work database that is now used to collect component 
home-to-work data, which is submitted to OCRSO on a quarterly basis. 
This requirement was implemented on October 1, 2014.
    After thorough analysis of each component's home-to-work submission 
and analysis of 1 year's worth of quarterly home-to-work data provided 
by each component, the Department now has, for the first time, specific 
knowledge of home-to-work use within DHS. This data enables DHS to 
better implement, monitor, and improve the fair and efficient use of 
home-to-work throughout the enterprise. For example, of our approximate 
220,000 employees, a total of 17,118 individuals at DHS are authorized 
to use home-to-work transportation. Component data indicates that on 
average, only 88 percent of these authorized individuals are regularly 
utilizing home-to-work transportation, indicating that components are 
evaluating usage to ensure that home-to-work transportation is utilized 
when it is essential to our mission.
    Having recently visited the Brownfield Border Station on the 
Southwest Border, our stations in the Northwest Region, and component 
operations in the Boston area, I've learned that components execute a 
diverse set of missions in an all threats-all hazards environment. 
There isn't a single standard motor vehicle solution that fits every 
component in every region. DHS will continue to be strategic about 
reductions in the fleet size to ensure that we are not hampering our 
ability to operate, but preserving safe and efficient use of these 
vehicles in order to complete our mission. Our data is, and will 
continue to be, a critical element for fleet decisions.
    As a result, the Department's motor vehicle fleet size has steadily 
decreased each year since its peak in 2011, and the Department will 
continue to improve how components procure the right vehicle for the 
right job based on mission requirements. Finally, the revised 
instructions for both motor vehicles and home-to-work transportation 
provide the framework for better oversight and compliance. While there 
is still work to do, DHS has made significant progress in improving its 
vehicle fleet management, and remains committed to sustaining this 
momentum.
    Thank you for the opportunity and privilege to appear before you.

    Mr. Perry. The Chair thanks you, Mr. Chaleki.
    The Chair now recognizes himself for 5 minutes of 
questioning for maybe as much time as I may consume. Our 
subcommittee staff analyzed data on DHS's vehicle fleet by 
component and found that FPS had far, far more vehicles to 
officers than other components as well as more vehicles to 
officers with authorization to commute from home to work in 
fiscal year 2014. In particular, we found that FPS provided 
more than twice, more than twice, as many vehicles per officer 
than the Border Patrol, who is charged with securing over 6,000 
miles of border. Even more telling is the number of vehicles 
for every officer provided with home-to-work privileges, where 
FPS provided 1\1/2\ vehicles per officer or 3 vehicles for 
every 2 officers with home-to-work privileges compared with 
Border Patrol's 12 vehicles for every officer; 12 for every 
officer compared to 1\1/2\ to every officer.
    Mr. Patterson, quite honestly, I understand that maybe this 
is how it was when you showed up and you are working your way 
through it. But I find it hard to believe that you can justify 
having twice as many vehicles for every officer than U.S. 
Border Patrol, that has a ratio of 12 vehicles for every 
officer with home-to-work privileges. How does FPS' mission 
literally require more vehicles than Border Patrol's mission?
    Mr. Patterson. Yes, sir. First of all, I have about 1,000 
law enforcement officers, a little over 1,000 law enforcement 
offices in all 50 States as well as U.S. territories. The total 
landscape of Federal facilities that we have to protect is 
vast. I have some of my officers who have to transit places 
like the Midwest that take 3 to 6 hours one way to go conduct 
business at the facilities that they are responsible for. 
According to the IG, we are about 2 vehicles, well, 100 
vehicles over the--excess vehicles, as has been stated. That is 
about 2 vehicles per State, 2 excess vehicles per State, given 
the vast mission that my folks have in serving those 9,000 
facilities. We travel; we do a lot of traveling between 
facilities, trying to get the work done of ensuring the 
oversight of our protective security officers in those 
facilities, conducting training, active-shooter training in 
those facilities, doing physical security assessments in those 
facilities. So our folks are on the road a lot getting that 
work done.
    So vehicles break down. We must have vehicles as a back-up 
if, in fact, these particular vehicles break down. They do 
break down. I have a pipeline of about 150 folks waiting to go 
to FLETC, that when they arrive at their home station, we have 
to provide them with a vehicle. I think, given that dynamic, 
100 vehicles, excess vehicles, is not excessive.
    Mr. Perry. So let's just talk through this a little bit 
because I think it is appropriate, I understand you have very 
mission-specific requirements. We all get that. In my opening 
statement, I outlined the vast number of buildings and 
properties that you must deal with and how vital, and I used 
the work ``vital,'' your mission is. I mean that sincerely.
    That having been said, are we to believe somehow that 
people that work in the District of Columbia should have the 
same requirements as the person that might be driving 3 hours 
one way in, I don't know, pick any State in the Midwest where 
what you just kind of laid out anecdotally for us might be 
true, should it be the same standard that that person gets--
because of position, regardless of mission--sir, you are a 
senior executive, and you have served as a senior executive in 
the military. So we are counting on you to make decisions that 
might not necessarily be proper but would be appropriate for 
mission completion and in keeping with what we think is 
appropriate for taxpayer expenditure. I find no way to justify 
what you have laid out for me, quite honestly.
    Mr. Patterson. So here is the challenge, sir. Let's talk 
about the Washington, DC, area. I have 640 facilities that we 
service in the D.C. area. During a day shift, a regular day 
shift, there are about 70 law enforcement folks who are on 
duty. In the afternoon, that drops to about 12. At night, that 
drops to five. All right. So let me take the example of the 
shooting and death of our protective security officer at night, 
in the evening, at the Federal, at the Suitland Federal 
facility in Suitland, Maryland, at the beginning of this year. 
I think it was January or February of this year. When that 
happened, I couldn't call on just those 5. I had to call out 
every available inspector--law enforcement person that we had 
to respond to that incident, along with the Prince George's 
County Police Department because that is our responsibility. So 
folks had to be ready to do that. They were. We responded 
appropriately. Not only did my folks have to respond, but my 
deputy director for operations had to respond.
    Mr. Perry. So, listen, I get that. I understand that 
completely. I appreciate your diligence and those individuals' 
sacrifices, which should be highlighted.
    That having been said, you as a military commander also 
know that you have steady-state operations where everybody goes 
about their business as appropriate day in and day out. But 
when there is an event and you must surge, people are going to 
have to be asked to go above and beyond. But that is not the 
norm. But on those occasions and in those times, you do what 
must be done.
    But that is an acute issue at an acute time. You can't tell 
me, maybe you can, but have you looked at the cost of surging 
your force at that time, as opposed to providing the access to 
the vehicles and use of the vehicles continuously, every single 
year in the case, in the happenstance that in one State at one 
moment for 1 day, there might be an incident, you know, in 
light of the fact that 49 percent of your vehicles have fewer 
than 12,000 miles on them?
    Then keeping with the other line of questioning or at least 
your testimony, when you say vehicles break down, God, don't I 
know it. My car is going to have 300,000 on it by the time I 
get rid of it. All right. They break down. Have you looked at 
the cost--have you looked at how often the incidents of 
breakdowns has caused you not to complete your mission, and has 
that been formulated into your calculation about how many 
vehicles you should have and how they should be utilized?
    Mr. Patterson. Yes, sir. We look at that continually. That 
is all a part of how we allocate vehicles. We have a formula 
that we use. We look at days in use, the annual downtime.
    Mr. Perry. What is your mission readiness rate?
    Mr. Patterson. I would have to get with our folks to give 
you that.
    Mr. Perry. You look at it all the time, sir. You came here. 
You knew I was going to ask you that question. You are a 
military guy.
    Mr. Patterson. Yes, sir.
    Mr. Perry. Army lives on its belly. So does the Air Force. 
Right? You got to have stuff to do your work.
    Mr. Patterson. Right.
    Mr. Perry. You would come here without knowing your 
operational readiness rate, knowing I am going to ask you 
because you are going to say we need these because things break 
down, understanding that 49 percent, half of your fleet, has 
less than 12,000 miles on it. This is a new vehicle to most of 
America. You are coming in and telling me that you calculated 
in you need 100 or whatever more vehicles per, plus what you 
have for each individual, you don't have an answer for me, sir?
    Mr. Patterson. Yes, sir.
    Mr. Perry. That is unacceptable. It is unacceptable. I am 
sorry, it is--you can't come here and make your case without 
that. I suspect if you came with that information, my case 
would be made.
    Mr. Roth, do you have anything to say?
    Mr. Roth. Simply that during the course of our audits, we 
did not see the kind of data collection we had hoped to see. As 
we noted, there was a 98 percent error rate in the kinds of 
mileage when you compared the GSA drive-through data with FPS' 
own data. So to be able to say that there was an understanding 
of exactly what the vehicle fleet looked like, how often it was 
used, I think is not entirely accurate.
    Mr. Perry. Listen, I am way over time here, and I want to 
give my colleagues a chance. But I do want to get to some 
things here.
    Mr. Chaleki, you mentioned your increased operational 
tempo, and then you mentioned some changes that you are looking 
at to the vehicle fleet management system and how you are going 
to do things. Do those proposed changes include a view of the 
use of personal--the personal use of vehicles--those structural 
changes? I have got to ask you, sir, you have served as well. I 
am assuming you guys have lived in the real world. I drive my 
car to work. My wife drives her car to work. We, most people, 
they take transportation. They handle their transportation 
themselves. They don't get a vehicle provided to them that then 
people have to call us and say, ``Hey, I saw this vehicle with 
GSA plates''--and you guys, you two both know this well because 
you have served, and I have dealt with the same thing at your 
level--``they are the cleaners, they are at the grocery store, 
why are my taxpayer dollars paying for these guys and gals to 
drive all over God's creation, why don't they use their own 
car?''
    So I am asking you, does the personal use of vehicles, is 
that included in your calculation moving forward on how you are 
going to manage your fleet?
    Mr. Chaleki. Chairman, on the home-to-work program, we 
don't allow for the personal use of vehicles. The vehicle is 
home to work. We don't buy designated home-to-work vehicles. We 
buy vehicles. Home-to-work enables them to do their response 
mission. We have stringent rules about who gets home-to-work. 
We have a stringent process that we went through this year----
    Mr. Perry. Sir, how stringent can it be when every officer 
has a vehicle?
    Mr. Chaleki. Sir, we rely on the components because they 
manage their own risks. So because they have the operational 
requirements, the mission requirements, we look at those 
requirements. We bump them up against our standards. But, 
again, they ask for these vehicles----
    Mr. Perry. The American public, the taxpayer, is relying on 
you as senior-level executive to look at those risks and make 
sure they are managed correctly. When you think that we have 
got to patrol the border, who has got 12 to 1, you got guys and 
gals down-range fighting the enemy who can't get a vehicle--
they just can't get one--you have been there. They can't get 
one. You are hoofing it. You are telling me, we are counting on 
you, and you are saying, ``Well, they told us that is what we 
needed,'' so we accepted it. Is that what you are telling me?
    Mr. Chaleki. No, sir. They put in the request based upon 
their mission. This year, we insisted that each component had 
sign-off that these are the vehicles that they need.
    Mr. Perry. What happens when they sign off and you find out 
it isn't what they need? What happens to them?
    Mr. Chaleki. Well, we go through the process, we look at: 
What do you need the vehicle for? Where is the operational 
environment? What is the requirement that you are requesting 
this vehicle? How is it used?
    Mr. Perry. You are satisfied with all the answers?
    Mr. Chaleki. We did reduce the home-to-work by over 500 
vehicles this past year.
    Mr. Perry. Well, sir, at this point, that is not, I don't 
think that anybody in the public is going to think that is 
enough, with all due respect. Right. We are counting on you. We 
are counting on you. This is your purview. It is your 
responsibility. Have you looked at, in your calculation, paying 
the Federal rate for people that work in the District of 
Columbia to drive to work as opposed to having the vehicle on 
taxpayer dime, 50 percent of the fleet of which has less than 
12,000 miles, essentially a new vehicle? Have you looked at 
that as part of your determination, as part of your study, as 
part of your improvement plan moving forward?
    Mr. Chaleki. No, Chairman.
    Mr. Perry. Are you going to?
    Mr. Chaleki. Yes.
    Mr. Perry. I will tell you this--and I am going to yield to 
the gentlelady--we are counting--you are individuals with high 
experience, right, and high responsibility. We are counting on 
you to do the right thing even if you don't have to do the 
right thing. We are counting on you. If you want Congress to 
get involved in your business, just keep doing what you are 
doing, and we will because we will have to since, apparently, 
you won't. That is kind of where we are.
    With that, I yield to the gentlelady from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I appreciate your generosity in taking the time to ask 
these questions and going over our 5-minute limit.
    But I would like to yield at this moment to my colleague, 
Mrs. Torres.
    Mr. Perry. So ordered.
    Mrs. Torres. Thank you, Mr. Chairman and Ranking Member.
    Mr. Roth, can you please describe the process you completed 
in investigating FPS vehicle mileage where you identified 
significant instances of inaccurate or incomplete total miles 
driven? How is it possible for a vehicle to register negative 
mileage? What steps can FPS take to better monitor or oversee 
the mileage tracking process?
    Mr. Roth. Thank you for that question. One of the things 
that we did was looked at two different data sets for the 
number of miles each individual car would drive. One is called 
the GSA, General Services Administration, drive-through. Every 
time a Federal vehicle comes up to the gas pump, they are 
required to key in the mileage of that vehicle. That is 
automatically transmitted to GSA. So we were able to access 
that information.
    There is a second data set for FPS in which each officer 
would have to record their mileage, including their home-to-
work mileage and the sort of mission mileage. We compared those 
two. What we found out as a result of that comparison was that 
there was a 98 percent error rate between what FPS thought 
their mileage was and what GSA thought their mileage was.
    With regard to the negative mileage, I am as stumped as you 
would be with regard to that. My assumption is that something 
got keyed in incorrectly at the gas pump for the GSA drive-
through data. But what it shows is that should have been a red 
flag, that somebody who was managing the vehicle fleet should 
have taken a look at that and said: You know, we need better 
data collection. We need a better understanding of what it is 
exactly our vehicle fleet is doing.
    That didn't occur in this case, which was somewhat 
troublesome.
    Mrs. Torres. On the issue of sedans, are they sufficiently-
sized vehicles to house the necessary FPS officer equipment, 
particularly in the trunk space? Do you believe that it would--
that an officer would have difficulty reaching for, say, a mask 
or storing mobile field force equipment, or whatever other type 
of equipment that that officer may need to do their job?
    Mr. Roth. Well, certainly that was the justification that 
FPS gave us during the course of the audit when we asked why 
you needed 97 percent of your fleet to be SUV. They said they 
had equipment, and it was required to have an SUV to do so. One 
of the things our auditors did was they did a representative 
sample to see whether or not the officers, in fact, had all 
their equipment. They did not. In fact, we have a chart within 
our audit that shows exactly how much equipment was missing. 
Some of that equipment was never even issued. So the idea that 
all this equipment was necessary was not belied by the facts 
that we saw. So that was the first issue.
    But the second issue is then our auditors actually did a 
real-world test and were able to put all the equipment into an 
averaged-sized sedan. Now, there are instances, of course, K-
9s, for example, and other types of operations that would 
require an SUV. But one of the things I would do, frankly, is 
walk outside the doors here and look at the Capitol Police. The 
Capitol Police have a very similar mission to this in a very 
similar threat environment as to this. What you see from the 
Capitol Police are tons of sedans. They do not rely exclusively 
on SUVs. So I would say that the proffered reason for the large 
cars simply was not justified by the facts.
    Mrs. Torres. So where are the areas where we could achieve 
some real savings, whether it is mileage, types of vehicles? 
Certainly equipment that hasn't been issued to an officer 
sounds like a very dangerous place for us to be.
    Mr. Roth. I think the Department itself has taken great 
strides since we have issued--this is our third audit report 
with regard to the DHS auto fleet. The Department has done a 
lot of work to try to gain some oversight. But at the end of 
the day, it requires each component head to act in good faith 
and be stewards of taxpayer dollars and make sure that, in 
fact, they have the minimum-sized fleet necessary for them to 
accomplish their mission. I have some doubts whether that is 
occurring throughout DHS. That is one of the things that we are 
certainly going to be looking at as we move forward.
    Mrs. Torres. Thank you.
    I yield back to the Ranking Member.
    Mr. Perry. The Chair thanks the gentlelady from California.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    I appreciate all you being here.
    Mr. Roth, you are quite busy. We see you a good bit.
    Mr. Patterson, the Office of Inspector General reported 
that FPS provides a vehicle to every law enforcement officer in 
FPS so they can respond to after-hours incidents. First 
question, are specific officers assigned to respond after-
hours? Or is this something that is expected of all officers at 
any time?
    Mr. Patterson. Yes, sir. It is expected of all officers at 
any time. Each officer is assigned a portfolio of Federal 
facilities. Okay. So when there is a problem at one of those 
Federal facilities, they are the first to be notified that 
there is a problem at that facility, and they need to respond 
as they feel necessary to that event.
    Mr. Loudermilk. Can you give me an example of a couple of 
Federal facilities? Would it maybe be a Federal courthouse?
    Mr. Patterson. Oh, yes, sir. We have got Federal 
courthouses across the country, Social Security facilities, IRS 
facilities, any number of facilities.
    Mr. Loudermilk. So every officer that works there will have 
a vehicle, even if they are just manning the front entrances? 
The Federal courthouse that one of my colleagues has a 
Congressional office in, there may be three officers up front 
that are there manning the entrance that you go through the 
metal detector. Each one of these would have a vehicle?
    Mr. Patterson. Let me explain that. The folks that you see 
at the Federal courthouse are--inside the courthouse--are court 
security officers. They work for the U.S. Marshal Service. We 
don't have, our officers, our law enforcement folks don't stand 
post at any of these. They don't stand post anywhere. Okay. Our 
job is to oversight those folks that do stand post. Okay. So 
what we do is we hire a number of folks through contract 
agencies that provide security services at IRS, Social 
Security, and other facilities across the Nation.
    So our job is to ensure that, No. 1, those folks are doing 
what they need to do. Second, we have a responsibility to every 
facility that we protect to ensure that we mitigate the threat 
at those facilities. So we do a security assessment at each one 
of those facilities. It is on a time line when we have to do 
it. So every one of our inspectors has to go out and do that. 
We also have a requirement to do what we call post inspections. 
So every facility that has a guard, a protective security 
officer--and they may have a physical checkpoint, you know, 
where you have to go through the magnetometer--well, we have a 
responsibility to ensure that, No. 1, they are doing their job 
and that the equipment there is working appropriate. So our 
folks are on the go quite a bit. That is what they are doing. 
They are moving from one facility to another to ensure that 
what is operating is operating effectively.
    Mr. Loudermilk. So I envision that 1 officer may have 3 or 
4 facilities in his portfolio?
    Mr. Patterson. I have some officers that have as many as 20 
or 30 facilities in their portfolio.
    Mr. Loudermilk. Do you have facilities that have more than 
1 officer assigned to it?
    Mr. Patterson. No, sir.
    Mr. Loudermilk. On average, how often do you get calls for 
off-duty incidents?
    Mr. Patterson. Every day, every night, every night, an 
alarm goes off somewhere in the Nation at a facility. Every 
night there is some vagrant who is trying to do something at 
one of our Federal facilities. We get calls all the time. I 
can't predict where we are going to get calls. To give you an 
example, when the incident happened in Baltimore and there was 
a riot, we responded to that because the Federal facilities 
were at risk. Our folks out of Philadelphia could not get down 
in a timely manner. So we pulled folks out of Washington, DC, 
which would normally have been directed here to go up there. So 
we got them out of bed, go up there and help with the 
protection of those facilities there. So at any given time, we 
may find ourselves anywhere. Just as when the Secretary said 
that he started Operation Blue Surge right after the incident 
in Canada, that he wanted to ensure that there was a higher 
profile around certain Federal facilities in the Nation. We 
pulled folks from all over the country to do that. Many of 
those folks drove to those facilities. They didn't fly. They 
drove.
    Mr. Loudermilk. Are these vehicles fully emergency 
vehicles, lights, sirens?
    Mr. Patterson. Yes, sir. That is another thing. We have to 
ensure that these vehicles meet the standards across 50 States 
because we never know where these vehicles are going to be. So 
what we do is we ensure that they meet the National standards 
for lights and equipment. But the most important thing, as far 
as I am concerned, every day is officer safety. Officer safety 
is paramount. So we have to make sure that they have the right 
equipment and whatever it is that they need in those vehicles 
to ensure that they get there safely, are able to do their job, 
and return home.
    Mr. Loudermilk. Thank you.
    Mr. Roth, do you concur with your investigation with the 
answer to the question?
    Mr. Roth. The issue we had was with region 11, which is the 
National Capital Region. They operate a 24/7 sort-of shift. 
They have three shifts of officers, unlike, you know, a typical 
Federal response facility. So one of the things I would say is 
for region 11 we had real concerns because their policies 
within region 11 said you were not going to be called out after 
hours. Yet, they were issued home-to-work. We asked about that 
justification. The answer we got is: Well, we need to change 
the policy with regard to region 11 to ensure that would be the 
case.
    The second thing I would say with regard to the travel, 
again, all we can go on is the data. The data says that 47 
percent, I think 49 percent of all the FPS vehicles have fewer 
than 12,000 miles a year. So I have no doubt that, in fact, 
there are many officers who are on the road constantly and 
putting miles on their cars, but there are a significant number 
of cars that do not. In fact, we had 234 cars that had fewer 
than 5,000 miles per year on the car. So we can only go by the 
data. The data shows they are vastly underused. As I indicated 
before, there are about 250 more cars than there are actual 
officers on duty.
    Mr. Loudermilk. Mr. Chairman, I know I have exceeded my 
time, but if I could be extended or if someone else, I would 
like to hear Mr. Patterson respond to the issue that was 
brought up by Mr. Roth is region 11 having a policy of not 
responding after hours, if that is appropriate.
    Mr. Patterson. Yes, sir. There is no policy that region 11 
will not respond. There was a standard operating procedure that 
was in--we have a dispatch facility in Suitland, Maryland. 
Someone had issued to that dispatch facility that we have 5 
folks who are on duty after hours versus the 60 who are on duty 
during the day. What they were trying to achieve there was that 
if you are going to call someone out for a response in the 
metropolitan area, please try to call one of those first before 
you--now, we have done away with that policy. You will call--
whoever is responsible for that facility, they will be called. 
But that was what that was about. It wasn't ``don't call 
anybody.'' It was that if you are going to call someone, try to 
call one of those 5 first before you call others.
    [Further clarification follows:]
                 Letter Submitted by L. Eric Patterson
                                  January 14, 2016.
The Honorable Scott Perry,
U.S. House of Representatives, Washington, DC, 20515.
    Dear Chairman Perry: Thank you for the opportunity to testify on 
December 3, 2015, on the management and operations of the Federal 
Protective Service (FPS) Fleet Program. I want you to know that we are 
actively working on the Questions for the Record from the hearing. In 
the interim I want to provide you with further information on the FPS 
Fleet Program and ensure there is no misunderstanding of my testimony.
    Overall, the National Protection and Programs Directorate (NPPD) 
and FPS have made progress in addressing the recommendations issued in 
the Department of Homeland Security (DHS) Inspector General Final 
Report (OIG-16-02), The FPS Vehicle Fleet Is Not Managed Effectively. I 
am committed to maintaining a vehicle fleet that allows FPS to gain 
efficiencies while ensuring mission readiness. While I believe the 
existing vehicle fleet supports the FPS mission, we are currently 
conducting a more in-depth review to determine the optimal mix of 
vehicles within large metropolitan areas and are considering the 
inspector general's recent recommendations as part of this analysis.
    Regarding vehicle orders, I stated in my testimony that 16 SUVs and 
33 sedans were delivered in 2015. To clarify, these vehicles, delivered 
in 2015, were part of the Fiscal Year (FY) 2014 order in which FPS 
turned in 75 vehicles and requested 16 SUVs and 33 sedans. The FY 2015 
vehicle order pending at the time of the hearing was for 122 SUVs, 59 
sedans, and 1 van. This order is on hold in order to further review and 
document the vehicle selection criteria against the mission need. 
Future fleet orders will use these findings as the basis for the fleet 
order instead of a like-for-like replacement strategy.
    I would also like to provide additional information with regard to 
my testimony that FPS is in compliance with the Vehicle Allocation 
Methodology (VAM). I stated that ``we are now completely in line with'' 
[the VAM]. My intention in so stating was to say that FPS has complied 
with the FY 2012 VAM survey, as required by DHS policy. The DHS IG has 
stated that DHS should make improvements to the VAM policy and ensure 
it meets the full scope of requirements of General Services 
Administration (GSA) Bulletin B-30. We are actively participating in 
the effort to update the DHS VAM policy, and all Departmental fleet 
policies, and ensure we continue to meet all requirements. As recently 
as January 12, 2016, my team met with NPPD, DHS Management Directorate, 
and the DHS Inspector General teams to discuss specific shortfalls and 
identified the need to work with GSA to refine the guidance and 
requirements that they are using to train agencies on VAM.
    In 2015, NPPD conducted an annual fleet utilization and retention 
analysis. The 2015 analysis identified 217 FPS vehicles that did not 
meet utilization (i.e. GSA mileage) standards and these vehicles are 
undergoing further review against the mission requirements to determine 
vehicle disposition.
    I am confident that our collective efforts will result in improved 
documentation, decision making, and management oversight of the FPS 
Fleet Program. I am committed to working with you in support of the FPS 
mission to provide safety, security, and a sense of well-being to the 
millions of visitors and Federal employees who work and conduct 
business on our facilities on a daily basis.
            Sincerely,
                                         L. Eric Patterson,
                                                          Director.

    Mr. Loudermilk. I thank both the gentlemen.
    I yield back the time I have already exceeded.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes the gentlelady from New Jersey.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Mr. Roth, how long did your investigation take place?
    Mr. Roth. I would have to get at the exact audit period, 
but what we looked at was fiscal year 2014.
    Mrs. Watson Coleman. How many people were on that 
investigation? How many people actually work for you?
    Mr. Roth. How many people work for me?
    Mrs. Watson Coleman. Yes.
    Mr. Roth. About 650, including law enforcement agents, as 
well as auditors.
    Mrs. Watson Coleman. So how many people were on this 
investigation?
    Mr. Roth. Let me look real quick. It is actually in the 
report.
    Mrs. Watson Coleman. Okay. While you are doing that, Mr. 
Patterson, this whole question of sort of--let me know when 
you----
    Mr. Roth. I have it. It is about 6 people and then, of 
course, supervisors.
    Mrs. Watson Coleman. Okay. Thank you. Mr. Patterson, this 
issue of utilization of the vehicles with less than 12,000 
miles, 2 questions I think. No. 1 is, does it impede your 
response time if a person has to go to a facility to pick up a 
car to then go respond to a place that is an active area?
    Mr. Patterson. It absolutely does. Let me give you an 
example.
    Mrs. Watson Coleman. The other question is, from a policy 
perspective, if you have this sort of vast differential in the 
utilization miles, should you be thinking of a rotation policy 
where you rotate some of those cars with the lowest mileage out 
for some of the ones with the highest mileage and bring the 
other ones--do you know what I mean?
    Mr. Patterson. Yes, ma'am. To answer your first question, 
would it be a challenge for our folks if they had to park their 
vehicles, then be called out to respond, go back to the office, 
pick up the vehicles, and then go to the facility? Yes, it 
would.
    Just to give you an example, when the shooting happened up 
at the Suitland Federal center in January or February, our 
folks were called out. My deputy director for operations was 
called out. He has, he has a home-to-work vehicle as well 
because I expect him to be out there when there is an issue in 
the city that must be taken care of. I have a home-to-work 
vehicle, but I don't use it. All right. However, on that night, 
my deputy called me out. He said: You probably need to come out 
here because we just had one of our officers killed.
    Okay. I came out in my private vehicle, and it took me 30 
minutes just to try to get through the county roadblocks 
because they were wondering, ``Well, okay, who are you, why are 
you here?'' because I did not have an official vehicle. Now, I 
finally got through, but it took time. All right. When we are 
responding to an emergency, time is of the essence.
    So to answer your first question, I believe that, yes, it 
would be a considerable challenge if, in fact, our folks had to 
go back to work and pick up a car and then try to get to 
wherever it is they have to go.
    Mrs. Watson Coleman. So there has been this discussion 
about 250 excess or surplus vehicles which were characterized 
as being excessive.
    Mr. Patterson. Yes, ma'am.
    Mrs. Watson Coleman. Beyond your need. First of all, was 
there a point in time when there were 250 vehicles that could 
be characterized of this nature? No. 2, did it have anything to 
do with your staffing at that time?
    Mr. Patterson. Well, you know, on any given day, that 
number is going to change. We have folks who come into, that we 
assess into the organization. We have folks. We have vehicles. 
People retire. So that number, I don't know of any time that 
that number has been up to 250, but it may have been. I can't 
say for sure. All right. We do have excess vehicles. I will 
grant you that. We have them for a particular reason because 
our vehicles do break down. I have an expectation that our 
folks will be able to respond and get to work and do the things 
that they need to do that the American people, I believe, 
expect of them.
    Mrs. Watson Coleman. Thank you.
    Mr. Chaleki, do you have any input in the validity of the 
request for the additional vehicles? So do you--is there some 
sort of methodology that is employed to determine how many 
vehicles you need to have in ready that may not be used?
    Mr. Chaleki. When we do the vehicle allocation methodology 
that we did in 2012, it asks all those questions. Really what 
the VAM is, is a Department-wide survey. So it would ask, in 
this case, FPS to explain the vehicle use, how you use it, what 
is your response, what is the remoteness of the location?--
Those kinds of questions, which would help drive the actual 
number of vehicles.
    Mrs. Watson Coleman. So it seems to me that there is a 
methodology that is used to make a number of decisions 
regarding vehicles, who gets them, what type of vehicle, where 
they are located, et cetera.
    But there was serious questions with regard to Mr. Roth's 
findings with regard to your ability to justify their findings 
of certain omissions or flawed information or whatever. What 
have you done that responds to the--particularly the 5 
recommendations that were made that I thought had more to do 
with accountability than whether or not you should have a 
sedan--I want to ask you about that question, a sedan versus an 
SUV--but all the other issues regarding vehicle use, underuse, 
misuse, whatever?
    Mr. Patterson. Yes, ma'am. I will begin the answer. 
Clearly, we probably, we didn't do a good job in that we have a 
completely--we had a completely manual process, first of all. 
We didn't have the--we just completed a fleet management 
directive. All right. We are now completely in line with the 
vehicle allocation methodology.* All right. We are also going 
towards the telematics program, which really it takes all the 
guesswork out of this. It means that any time an inspector or 
one of our law enforcement individuals moves that vehicle, it 
is being tracked. Okay. So there is not going to be a question 
as to when and where and how; we are going to know 
specifically. So this will help to help us better understand 
what the overall utilization is in that vehicle and how they 
are being used and, quite frankly, will help me make better 
decisions in how we deploy those vehicles and employ these 
vehicles.
---------------------------------------------------------------------------
    * See previous insert, letter dated January 14, 2016.
---------------------------------------------------------------------------
    Mrs. Watson Coleman. Do you have a justification for 
choosing or desiring or needing a sedan versus an SUV or an SUV 
versus a sedan?
    Mr. Patterson. Yes, ma'am. You know, 80 percent of the SUVs 
that are currently in the fleet of the Federal Protective 
Service were bought in 2008, 2009, and 2010.
    That means they were ordered a year before that, all right,
    So, during part of that time, we were under the management 
of the Immigration and Customs Enforcement service. So what we 
bought was whatever that was offered to us, all right? It was 
either sedans, at that time, or SUVs. At that time, we believed 
that SUVs were the best choice because SUVs gave us a 6-year 
life. So that meant that we could upfit the vehicle. We would 
buy the vehicle. For 6 years, we would have that vehicle and 
not have to turn it in and not have to replace it.
    GSA's requirement for replacing sedans is on a 3-year 
cycle. So that means, every 3 years, we would have to replace 
that vehicle and upfit that vehicle. We actually believe that 
there is a savings associated with these vehicles over time.
    Now, it is my understanding that GSA is going to a 5-year 
life cycle for SUVs, so that has changed.
    But just to give you an example, this year, we ordered SUVs 
and S sedans. For 2015, 16 SUVs were delivered; 33 sedans were 
delivered. So we are going through this process. We are looking 
and evaluating, okay? But we came out of a system before that, 
really, we bought what we were offered. GSA says: This is the 
package. At that time, the Immigration and Customs Enforcement 
says: Okay, this is what you can buy. This is what we did. So--
--
    Mrs. Watson Coleman. So my last question has to do with the 
fact that you were overpaying for equipment----
    Mr. Patterson. Yes, ma'am.
    Mrs. Watson Coleman [continuing]. That you had already paid 
for.
    Mr. Patterson. Yes, ma'am.
    Mrs. Watson Coleman. My question is, have you established a 
mechanism to make sure that that doesn't happen?
    Mr. Patterson. Yes, ma'am. We have.
    Mrs. Watson Coleman. What is it?
    Mr. Patterson. Yes, ma'am. What it is, is that we were 
still paying the lease fees on the upfitting equipment for 
vehicles that were purchased in 2007. Okay? It was an 
accounting--we just missed it. We just missed it, and it was 
pointed out to us. We have corrected those accounting processes 
to ensure--and working with GSA because GSA recognized 
immediately that they had been overcharging us. So we are 
working that out now.
    Mrs. Watson Coleman. So, Mr. Roth, do you believe that the 
FPS is moving in the right direction considering your findings?
    Mr. Roth. We have an audit resolution process. We are 
certainly going to be taking a look at some of the assertions 
that we have heard since the audit has come out. I will have to 
say that I was a bit disappointed to learn in preparation for 
this hearing about the episode that happened this summer in 
which we gave the findings to FPS and the Department, saying 
that there was an excess vehicle fleet. So they had a 
significant number of vehicles that had, you know, fewer than 
5,000 miles. Notwithstanding that, they refreshed 16 percent of 
their fleet. That happened in August. So perhaps since that 
time, there has been some change. But, you know, as a 
professional auditor, we will remain skeptical.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Speaker.
    Mr. Perry. The Chair thanks the gentlewoman.
    The Chair recognizes the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. Thank you for coming.
    Mr. Roth, we see a lot of you. Thanks for what you do.
    So if I understand correctly, you all get your fees by 
charging 74 cents per rentable square foot, right? Am I right 
about that?
    Mr. Patterson. Yes, sir.
    Mr. Clawson. You all are doing a good job managing, so that 
fee is going down on a year-to-year basis, correct?
    Mr. Patterson. I am sorry, sir?
    Mr. Clawson. I am assuming 2 or 3 years ago, that would 
have been 78 cents going to see--I mean, you are managers. You 
are all over your business. You are all over your cars. So your 
customer costs would be going down; 74 cents is probably less 
than it was a few years ago. That is how we all run our 
businesses.
    Mr. Patterson. Yes, sir. Effective management would drive 
our costs down. However, we are increasing in personnel for the 
increased number of threats that are across the country. So our 
personnel numbers have gone up as a result of that.
    Mr. Clawson. But your square foot would go up as your 
customer base goes up. This is a variable----
    Mr. Patterson. Yes. Yes.
    Mr. Clawson. Your price is a variable price.
    Mr. Patterson. Well, we are tied to GSA lease. Yes.
    Mr. Clawson. What is that?
    Mr. Patterson. We are tied to GSA lease square footage.
    Mr. Clawson. Right. So, as that goes up, you get more 
money.
    Mr. Patterson. Yes, sir. But when that goes up, that means 
we have more accountability to whoever the customer is.
    Mr. Clawson. Right. But your costs per square foot 
shouldn't be going up. It should be going down.
    Mr. Patterson. No. It can't go down if we are bringing on 
more folks in order to accomplish the mission.
    Mr. Clawson. The variable expenses should match the 
variable costs.
    Mr. Patterson. Yes, sir. But how----
    Mr. Clawson. Your fixed costs should stay the same.
    Mr. Patterson. Well, yeah. But----
    Mr. Clawson. Mr. Roth, am I missing something there? I 
mean, I have been running businesses my whole life. I have 
never seen where we didn't get mileage on fixed cost extension 
by adding customer square footage.
    Am I wrong? Am I missing something here?
    Mr. Roth. Not that I am aware of, Congressman.
    Mr. Clawson. Okay. So, given that, if your costs are not 
coming down, particularly as your square footage goes up--
because you are not going to have fixed expenses at the home 
office, please.
    Mr. Patterson. Yeah. I don't know. I would have to talk----
    Mr. Clawson. Let me finish my point.
    Mr. Patterson. Yes, sir.
    Mr. Clawson. In that environment, you are going to get hit 
by things like cars. You just do. That is life.
    I go down to one of my factories, and it is not performing, 
and they have got extra cars sitting around, that is a symbol.
    If this number was going down every year, like the median 
income for my constituents goes down every year, then the cars 
don't bother me as much because you are making headway on your 
other costs.
    Your variable costs should be going down as your rentable 
square foot goes up because you are getting billed--you are 
getting added revenue. Now, that is the world we live in.
    So when I looked at this, I said to myself: Well, they have 
got too many cars. They are refreshing their fleet. They must 
be making it up somewhere else because certainly they wouldn't 
be coming to me saying: Our costs are going up to the 
taxpayers, and we want more cars.
    There is no world that I have lived in where you get away 
with that.
    So I don't know the ins and outs of how you are doing on 
the vehicles. But if that 74 cents was going down to 72 cents 
and 71 cents because you are making headway on your cost 
structure on a variable basis, Mr. Patterson, then what is 
going on with the vehicles seems a lot less sensitive.
    Mr. Roth, is anything about my math incorrect? Because if 
it is, tell me. I don't want to get on a limb if my math is 
wrong.
    Mr. Roth. I don't believe it is, sir.
    Mr. Clawson. Fixed cost leverage means something as your 
business grows.
    I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    Mr. Patterson, I just want to revisit the home-to-work 
transportation in region 11.
    It seems hard to justify the 1.2 million in self-reported 
home-to-work miles driven in fiscal year 2014 by 142 officers 
as essential for carrying out its mission.
    FPS region 11 has rotational shifts for on-duty officers 24 
hours a day as protocol states that off-duty officers in this 
region should not--it doesn't say ``will not'' but it says 
``should not''--be dispatched to after-hour incidents.
    I understand you had one. They couldn't get here from 
Philly--this is your testimony--so you pulled them out of 
Washington, which is presumably region 11, correct?
    Mr. Patterson. Yes, sir.
    Mr. Perry. But that is one incident. That is one incident. 
That is not every single day. So it is hard to justify 1.2 
million self-reported miles.
    Hopefully, they are correct. But that is an awful lot of 
miles.
    It says: Nearly 57 percent of the fleet's overall miles 
driven are home-to-work and cost region 11 an average of about 
$300,000 per year.
    Almost 60 per percent of your miles are driven getting to 
work, not doing--that is how people see this. I don't know how 
else to say that. I just don't know how else to say that. That 
is how I see it. That is how people see it.
    Now, I understand it is inefficient when you are trying to 
get to the site, as an official, and you have got to be stopped 
by the police and so on and so forth. I truly get that. But you 
are in charge of this operation, right? So, to me, you know, we 
have been through this--especially you guys, as military guys. 
You are managers. So if it is not working the way it is now, to 
do the mission and complete the mission and save the taxpayers 
the money or at least charge them the minimum, then you have 
got to change how you operate your mission.
    Maybe you should have a quick-reaction force in region 11 
so that when that happens, you don't get detained because they 
are in the vehicle. But not every single person is driving so 
that 57 percent of your miles and your cost in region 11 are 
going to drive to work.
    You understand how that looks out in the real world? Mr. 
Clawson, this is a guy who made the bottom line, who ran 
businesses. That is how it looks to his constituents, 
taxpayers. When he talks about the square footage price, and 
when the Secretary comes in for Homeland and says, ``We need 
more money to protect the American people,'' and we get a 
report like this, what am I supposed to think? How do I go into 
a town hall meeting and tell my constituents that we are doing 
the best we can? They know we are not. They see this stuff too.
    The reason probably Mr. Roth--one of the reasons Mr. Roth 
took a look at your organization is because people call in and 
say: This organization is wasting taxpayer money.
    That is why they do it, because they see it. They count on 
you, senior-level executives, SES guys, making a lot of money 
compared to average working people--just like me--making a lot 
of money. They expect accountability, and they expect results. 
If you are not getting it under the current paradigm----
    I get it that when you showed up, these vehicles were 
already coming. I get that. We are not holding you accountable 
for that. That is the way it is.
    But moving forward, when I hear that you guys aren't going 
to look at this, this home-to-work program as one of the 
improvements you want to look at, when you are not bringing in 
your operational readiness rate, when you are telling my 
counterpart here from New Jersey that vehicles break down--
meanwhile, you have got vehicles--what is it?--49, 47 percent 
of your fleet with less than 12,000 miles. Tell me what 
American driving today, other than they bought a new car, is 
driving a car that has got less than 12,000 miles or 5,000 
miles. That is not happening in the real world.
    So when you tell me they are breaking down, you need to 
tell me how many incidents you didn't make it to because your 
vehicle broke down. Can you tell me that?
    Mr. Patterson. No, sir.
    Mr. Perry. So you can't defend yourself, and I am not going 
to defend you. All right? If you are going to come and make a 
claim like that, you had better bring something, but you are 
not bringing anything.
    I don't mean to be up here being a curmudgeon, but our job 
is oversight for the taxpayer: To make sure you are getting 
your mission complete and you are doing it at the least cost. 
Quite honestly, it doesn't look like you are doing it. You 
might be getting your mission done, but everybody can get their 
mission done when they have unlimited resources, which is what 
you have right now. You have unlimited resources. That is the 
appearance here. Then the Secretary is going to come and say: 
We need more.
    No, we don't need more. We need to do it correctly.
    Let me ask you this, Mr. Chaleki. The subcommittee staff 
analyzed fleet data from several components and found that 
while FPS has over 100 extra vehicles in its fleet, other 
components do not have--do not have--spare vehicles in their 
fleet. Specifically, neither Customs and Border Protection--you 
would admit and agree that is a pretty important and visible 
topic at this moment, right?--or the TSA, the face of the 
Department of Homeland Security, neither one of those two very 
critical agencies have spare vehicles, and neither assigns 
vehicles directly to personnel.
    What makes you folks any different? Why is your mission 
different? What are we missing here? I mean, am I missing 
something?
    Mr. Chaleki, am I missing something?
    Mr. Patterson has been on the hot seat here. Why don't you 
take some of the heat?
    Mr. Chaleki. I appreciate that, Chairman.
    No, the other components don't have spares. Again, the FPS 
mission requirements said that because of the remote locations 
that they are operating from, they can't afford to have a 
breakdown of a particular vehicle. In this case, the LE-1s. 
These are the pursuit vehicles. But you can't just go downtown 
and rent a new one. If it breaks down and you only have a 
couple of agents, those agents aren't able to do their job. 
That is why they have a sparing methodology at NPPD that they 
use to justify that.
    I think it has reduced slightly down to 92 vehicles. But 
that is their methodology that they are using here.
    Mr. Perry. So just a couple thoughts here. Not to just be 
critical for the sake of being critical, when Border Patrol--
and I don't know how many miles their vehicles have on them. I 
don't know what their maintenance condition is. When they have 
got to chase somebody and the vehicle breaks down, that is not 
good, right? We wouldn't want that to happen to them either. So 
they could come and say: Look, we need 100 percent all the 
time. But somehow, they are able to get their mission 
accomplished at the 12:1 ratio. So I just beseech you: You must 
take a look at this because if you don't, we will.
    We understand you have got to complete your mission, and 
vehicles break down. But I think Mrs. Watson Coleman made a 
very common-sense statement: If your vehicles--if half of them 
are less than 12,000 miles, and you have got some out there 
that are being driven every day because somebody is driving 3 
hours one way, from this place to that place, you guys are 
managers. You should be looking at this and saying: Well, holy 
smokes here. One has 5,000 miles on it and is sitting downtown 
all the time with leaves around the tires, and this guy is 
driving 300,000 miles on it. Why don't we move this one over 
there? You are going to say: Well, they have got different 
State requirements.
    Let me ask you this: Does your data include the different 
State requirements that disallows you to move vehicles from 
State to State? Because if you don't have that, you can't come 
here to make that claim to either me or Mr. Roth. If you have 
got it, bring it.
    Do you have it?
    Mr. Chaleki. No.
    Mr. Patterson. No.
    Mr. Perry. So we don't mean to be overly harsh here. But 
understand that we are the stewards of the taxpayers' money.
    You, you are right there. You are going to charge other 
agencies taxpayer money to pay you for the business you do to 
protect them, as you should.
    But we required you to use your best judgment, not just--
well, this is the way it was done, and it is a little too 
difficult, and well, I don't want to be the bad news guy, so I 
guess I will let Congress be the bad news guy to tell every 
agent he doesn't get his own or she doesn't get her own 
vehicle.
    If you want to take it that far, I guarantee you, somebody 
here will do that for you. We don't want to tell you how to do 
your business. We don't. We don't want to have this meeting 
again. We don't want to be here again. You don't want to be.
    We would rather you be out there managing these people that 
are protecting us. But if this continues, if Mr. Roth brings 
this report again to us next year and it is not substantially 
different, we are going to do the same dance, and there is 
probably going to be legislation that gets in your business 
that is going to be bad for all Americans. It is going to be 
bad for all of us.
    I appreciate your time.
    Let's see if we can end this thing so you can get out of 
here because we have wasted a lot of your time here today just 
waiting on us.
    The Chair thanks the witnesses for their valuable testimony 
and the Members for their questions. Members may have some 
additional questions for the witnesses, and we will ask you to 
respond to these in writing.
    Pursuant to committee rule 7(e), the hearing record will 
remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Ranking Member Bennie G. Thompson for John Roth
    Question 1. Inspector General Roth, according to your testimony 
this recent review of the FPS vehicle fleet is ``merely one example of 
the consequences that limited Departmental oversight and authority can 
have on a component's ability to manage its own vehicle fleet operation 
effectively.'' You also state that without policies that afford fleet 
managers with definitive authority components will operate with a 
``business as usual'' mentality. Inspector General Roth, are you saying 
that it is likely that there is little assurance that other components 
are operating their fleet effectively? What can DHS do to ensure that 
each component is effectively managing its fleet?
    Answer. We identified multiple, systematic oversight deficiencies 
during our audits of FPS' vehicle fleet, DHS's home-to-work program, 
and DHS's management of components' fleet operations. Based on these 
audits, it is likely that other components also need to improve vehicle 
fleet management practices.
    To help ensure that each component is effectively managing its 
fleet, DHS can improve oversight by:
  <bullet> Strengthening the DHS Manual 112 05-001 Home-to-Work 
        Transportation and establishing guidance for periodic 
        reauthorization of all approved home-to-work authorizations.
  <bullet> Finalizing its draft Motor Vehicle Fleet Management 
        Instruction.
  <bullet> Reviewing component vehicle acquisitions and leases.
  <bullet> Implementing a centralized, Department-wide inventory 
        tracking system.
  <bullet> Implementing policies to ensure components collect reliable 
        information to track, monitor, analyze and report vehicle fleet 
        use and costs.
  <bullet> Providing Department motor vehicle fleet management staff 
        with definitive authority over component fleet management 
        decisions.
  <bullet> Developing and administering a standardized annual vehicle 
        allocation methodology for all components.
    Additionally, after our report was final, FPS determined its 
leasing terms or business model regarding discretionary Law Enforcement 
equipment did not align with GSA's business model. The Department 
should review the GSA/FPS MOU and update as needed prior to future FPS 
vehicle fleet obligations. Furthermore, DHS should review all GSA MOUs 
to ensure they align with other components' business models.
    Question 2. In your final report, you reference the lack of 
efficient and effective oversight of the FPS vehicle fleet from the 
Department of Homeland Security. What can the Department be doing 
better to ensure the appropriate vehicles, at the appropriate costs, 
are being utilized by FPS?
    Answer. The Department is updating its Motor Vehicle Fleet 
Management Instruction to include additional controls. Based on our 
review of the draft instruction, these new controls should help ensure 
FPS uses appropriate vehicles with the appropriate cost structure.
    To address issues of appropriate cost, the guidance must:
  <bullet> Require a formal justification regarding the type of vehicle 
        approved by the NPPD fleet manager for each replacement vehicle 
        purchased or leased that is larger than class III midsize 
        sedan.
  <bullet> Require the NPPD fleet manager approve annually each GSA/FPS 
        Law Enforcement equipment package. Each discretionary item 
        should align with an FPS mission requirement. For example, if 
        FPS determines a bike hitch in its Law Enforcement package is 
        necessary, the officer assigned that vehicle should have a 
        mission requirement which entails using a bicycle to conduct 
        regular patrols.
    Additionally, the guidance should require NPPD to complete an 
annual Utilization Retention Analysis Methodology of its entire vehicle 
fleet. Any vehicle identified that is under the utilization threshold 
should require an approved justification from NPPD annually.
    Question 3. During a random search, you observed approximately 46 
vehicles that were not equipped with necessary officer equipment 
including gas masks and protective suits. Were the officers aware that 
they were missing essential equipment in their Government-issued 
vehicle? Why did you decide to not address the missing equipment in 
your recommendations to FPS?
    Answer. The officers were not aware because they were never given 
criteria that told them what equipment was considered essential.
    The scope of our audit was limited to determining whether FPS' 
vehicle fleet was appropriate for its operational mission. Making a 
formal recommendation regarding the missing equipment would have 
required a significant amount of additional audit work, which in turn, 
would have delayed the audit report. Nevertheless, we briefed the 
finding to FPS and as a result, FPS issued interim guidance outlining 
the minimum equipment requirements for law enforcement vehicles and 
required quarterly inspections of every vehicle. Although we did not 
issue specific recommendations concerning the missing equipment, we 
will address this issue through the resolution process of 
recommendations No. 1 and No. 3. These recommendations require 
additional oversight and updating of both the DHS and NPPD Vehicle 
Fleet Manuals. We will review the updated guidance to ensure equipment 
inspections are included.
    Question 4. In your report, you recommend that DHS Under Secretary 
for Management require the NPPD Fleet Manager review and revise FPS's 
Fleet Manual. FPS developed a fleet management policy to address this 
recommendation, but your office only considers the recommendation 
partially resolved. What other information or steps are needed from FPS 
to fulfill your recommendation?
    Answer. The recommendation will remain partially resolved until DHS 
provides the results of the NPPD Fleet Manager's review of FPS' revised 
policy, issues the revised policy, and incorporates it into NPPD's 
Vehicle Fleet Manual.
    Question 5. Inspector General Roth, according to your testimony, 
you state that FPS is just one example of the consequences that the 
Department's limited oversight can have on a component's ability to 
manage its own fleet effectively. Please explain how the Department can 
have better oversight over all DHS component vehicle fleets. Do you see 
the Department doing that now?
    Answer. The Department can improve oversight of its components' 
vehicle fleets by:
  <bullet> Strengthening the DHS Manual 112 05-001 Home-to-Work 
        Transportation and establishing guidance for periodic 
        reauthorization of all approved home-to-work authorizations.
  <bullet> Finalizing its draft Motor Vehicle Fleet Management 
        Instruction.
  <bullet> Reviewing component vehicle acquisitions and leases.
  <bullet> Implementing a centralized, Department-wide inventory 
        tracking system.
  <bullet> Implementing policies to ensure components collect reliable 
        information to track, monitor, analyze, and report vehicle 
        fleet use and costs.
  <bullet> Providing Department motor vehicle fleet management staff 
        with definitive authority over component fleet management 
        decisions.
  <bullet> Developing and administering a standardized annual vehicle 
        allocation methodology for all components.
    The Department is taking steps to improve fleet oversight and has 
drafted several policies and manuals. These steps include:
  <bullet> Revising DHS Manual 112-05-001 Home-to-Work Transportation 
        to include standard definitions, policies, and procedures for 
        home-to-work transportation data collection.
  <bullet> Requiring each component to review its home-to-work programs 
        and submit requests for their home-to-work reauthorization to 
        the DHS Secretary for approval.
  <bullet> Creating a motor vehicle and home-to-work transportation 
        reporting module within its Consolidated Asset Portfolio & 
        Sustainability Information System (CAPSIS), and implementing 
        phase II in fiscal year 2016 to improve the accuracy of data. 
        CAPSIS is a business intelligence tool created to aggregate 
        asset management data.
  <bullet> Drafting an update to the DHS Motor Vehicle Fleet Management 
        Instruction, incorporating additional Departmental-level 
        oversight of component fleet management. We are currently 
        reviewing the instruction and will provide formal comments to 
        DHS by January 7, 2016.
  <bullet> Developing and implementing a Departmental vehicle 
        allocation methodology.
    We will continue to work with the Department through the 
recommendation resolution process to improve oversight of components' 
vehicle fleets.
    Question 6. Inspector General Roth, in your audit you noted that 
FPS made ad hoc justifications about its fleet decisions. Through my 
oversight, I have also seen administrative lapses at FPS. Do you see 
the lack of oversight and justifications as a systemic problem at FPS?
    Answer. Our review focused solely on FPS' management of its vehicle 
fleet operations; thus, we cannot comment on whether the lack of 
oversight and ad hoc justifications are a systemic problem at FPS.
    Question 7. Inspector General Roth, you state in your testimony 
that there was a 98% error rate between what FPS thought its vehicle 
fleet mileage was and what GSA recorded as the vehicle fleet mileage. 
What do you believe contributed to such a substantial error range? What 
can management do to ensure this error range does not continue?
    Answer. There was a substantial error rate because FPS officers did 
not always input accurate mileage at the fuel pump when they refueled 
their vehicles or accurately complete the manual, monthly Vehicle 
Operation Report (VOR). At the time of our review, VOR processing was a 
monthly administrative task with limited officer accountability and 
supervisory oversight.
    As a result of our review, FPS immediately issued a policy 
requiring officers' supervisors to review and certify the accuracy and 
completeness of the VORs. We believe this policy will help ensure this 
error range does not continue.
    Question 8. Inspector General Roth, you state in your testimony 
that the Department has made strides in its vehicle management and 
``done a lot of work to gain oversight.'' Please describe what steps 
the Department has taken to better oversee vehicle fleet management and 
any new policies or procedures in place.
    Answer. As we noted in question 5, the Department is taking steps 
to improve oversight. For example, DHS is:
  <bullet> Revising DHS Manual 112-05-001 Home-to-Work Transportation 
        to include standard definitions, policies, and procedures for 
        home-to-work transportation data collection.
  <bullet> Requiring each component to review its home-to-work programs 
        and submit requests for their home-to-work reauthorization to 
        the DHS Secretary for approval.
  <bullet> Creating a motor vehicle and home-to-work transportation 
        reporting module within its Consolidated Asset Portfolio & 
        Sustainability Information System (CAPSIS), and implementing 
        phase II in fiscal year 2016 to improve the accuracy of data. 
        CAPSIS is a business intelligence tool created to aggregate 
        asset management data.
  <bullet> Drafting an update to the DHS Motor Vehicle Fleet Management 
        Instruction, incorporating additional Departmental-level 
        oversight of component fleet management.
  <bullet> Developing and implementing a Departmental vehicle 
        allocation methodology.
    Question 9. Inspector General Roth, you state in your report that 
it's FPS policy to not dispatch off-duty officers to after-hour 
incidents. Director Patterson stated in his testimony that off-duty 
officers are frequently dispatched to after-hour incidents. Please 
describe your understanding of this policy and the discrepancy in 
understanding.
    Answer. We understand the importance of the FPS mission, which 
requires 24/7 readiness for building security. At the hearing, Director 
Patterson made a general statement about FPS frequently dispatching 
officers to after-hour incidents. During our review, however, FPS could 
not provide accurate data on the number of times officers are 
dispatched to after-hour incidents.
    We believe the data FPS used to support reauthorizing the home-to-
work program for its officers is inaccurate and incomplete. 
Specifically, our analysis revealed two issues:
    (1) The Suitland MegaCenter dispatches officers to FPS' Region 11. 
        According to its policies, ``Region 11 has FPS Officers on-duty 
        24/7, therefore the MegaCenter should not dispatch off-duty FPS 
        Officers to an incident in Region 11 (this does not include the 
        On-Call Special Agent).'' We understand there are certain ``On-
        Call Special Agents'' and extenuating circumstances in which 
        FPS Officers in Region 11 are called at home after hours to 
        respond to emergencies. However, this may not justify allowing 
        142 Region 11 Officers to use the home-to-work program 100 
        percent of the time. For example, 8 Region 11 Officers live at 
        least 60 miles from their duty station and drive an estimated 
        28,800 miles per year from home to work; they are authorized to 
        use the home-to-work program because they ``may'' get called 
        into work.
    (2) FPS does not keep accurate records of monthly officer call-
        outs, so we could not determine the number of times officers 
        are actually called back to work. At the time of our review, 
        FPS was just beginning to capture call-out data in its VORs, 
        and we did not review them for accuracy. The MegaCenters tracks 
        call-outs, but cannot track whether officers are called out 
        when at home after completing their scheduled work day. Region 
        11 was also incorrectly annotating call-outs during scheduled 
        work days. Finally, an FPS MegaCenter official said that FPS 
        officers are not always required to respond to after-hours 
        incidents. The MegaCenter dispatcher calls the FPS officer 
        listed for a particular building; if the officer is busy or 
        does not answer, the MegaCenter continues calling officers 
        until someone can respond. According to the MegaCenter 
        official, depending on the incident, on-site contracted guards 
        or local police or fire departments may respond.
    The DHS OCRSO has taken steps to improve tracking of Home-to-Work 
usage through its revised DHS Home-to-Work Transportation Manual, and 
the fielding of CAPSIS. The data in the system relies on the components 
to ensure accuracy. DHS OCRSO is just now beginning the second phase of 
the system roll-out and will start testing the accuracy of the data. We 
believe there are still additional actions necessary for FPS to 
accurately capture after-hour incident data. We will ensure that prior 
to resolving Recommendations No. 1 and No. 3 a DHS and NPPD oversight 
process is implemented.
       Questions From Chairman Scott Perry for L. Eric Patterson
    Question 1. There have been reports of instances, particularly in 
the National Capital Region, where local police departments are called 
to respond to incidents or emergency situations at FPS-protected 
facilities. In particular, our staff has heard reports of FPS officers 
refusing to respond to an incident at all, knowing that the local 
police department will respond on their behalf. To what extent is FPS 
aware of this occurring? How often do local police respond to incidents 
in FPS facilities instead of FPS officials?
    Answer. In fiscal year 2015, there were 1,004 on-duty FPS law 
enforcement officers assigned to protect 9,600 Federal facilities 
nationally and these officers responded to 91,850 calls for service. 
Coordinated response with other law enforcement jurisdictions may be 
appropriate when the facility is either proprietary or concurrent 
jurisdiction.\1\ In some situations, local police were contacted for 
response first by civilians. FPS is not aware of any situation where a 
FPS law enforcement officer refused to respond. Occasionally, FPS may 
not have personnel close to an incident and assistance from local 
police is utilized in the interest of public safety. In these 
situations, FPS coordinates with law enforcement partners to determine 
the most appropriate response based upon the assessed threat of the 
incident. This cooperation on responses is anticipated and is captured 
in documents like the interagency agreement between FPS and the 
Metropolitan Police Department. Region 11, which is the National 
Capital Region, experienced a total of 18,377 responses in fiscal year 
2015, of which 338 were responded to solely by local police, 
representing less than 2% of the total responses.
---------------------------------------------------------------------------
    \1\ Proprietary jurisdiction is where the United States has 
acquired some right of title to an area within a State's borders (such 
as a Federal building), but has not acquired any measure of the State's 
authority over the area. In essence, the United States has rights 
equivalent to a private landlord and what that means simply is State 
law applies within the proprietary area to the same extent that it does 
throughout the remainder of the State. The Government therefore has 
taken over none of the State's obligations for law enforcement. 
Concurrent jurisdiction is applied in those instances wherein the 
United States is granted authority which would otherwise amount to 
exclusive jurisdiction over an area. However, the State concerned has 
reserved to itself the right to exercise, concurrently with the United 
States, all the same authority.
---------------------------------------------------------------------------
    Question 2. The OIG reported that FPS was not in compliance with 
Federal and Departmental requirements because it did not complete its 
part of NPPD's overall vehicle allocation methodology. What is FPS's 
rationale for not being in compliance with these requirements?
    Answer. FPS has complied with the Fiscal Year 2012 Vehical 
Allocation Methodology (VAM) survey as required by DHS policy. In 2015, 
NPPD conducted an annual fleet utilization and retention analysis. The 
2015 analysis identified 217 FPS vehicles that did not meet utilization 
(i.e. GSA mileage) standards and these vehicles are undergoing further 
review against the mission requirements to determine vehicle 
disposition. The estimated completion date for this effort is April 1, 
2016. This process is part of the VAM compliance process. FPS is 
confident that these collective efforts will result in improved 
documentation, decision making, and management oversight of the FPS 
Fleet Program. The DHS IG stated that DHS should make improvements to 
the VAM policy and ensure it meets the full scope of requirements of 
the GSA Bulletin B-30. FPS is actively participating in the effort to 
update the DHS VAM policy. As recently as January 12, 2016, FPS met 
with NPPD, DHS Management Directorate and the DHS IG to discuss VAM-
specific shortfalls and identified the need to work with GSA to refine 
the guidance and requirements that they are using to train agencies on 
the VAM.
    Question 3. Executive branch guidance directs Federal agencies to 
determine the optimum size of their fleets and eliminate non-essential 
vehicles. That guidance states that ``the Federal fleet should operate 
only as many vehicles as needed to work efficiently.'' To what extent 
has FPS determined the optimum size of its fleet and eliminated non-
essential vehicles? How can FPS be certain that all 1,169 vehicles, 
which cost almost $11 million, are all essential?
    Answer. FPS conducted the VAM survey in 2012 to determine the 
optimum fleet and has reduced its fleet size by over 100 vehicles since 
this time while increasing the law enforcement officer cadre and 
responding to surge operations across the Nation. The FPS fleet of 
1,152 leased vehicles currently meets the operational requirements and 
is currently undergoing an annual utilization retention analysis to 
determine if there are any changes required to the vehicle disposition 
to ensure the optimum fleet size.
    Question 4. According to DHS's fleet program manual, components 
must consider the need for vehicles driven less than 3,000 miles per 
quarter or 12,000 miles per year. Vehicles below that threshold are to 
be disposed of or reassigned. However, the OIG found that 49% of FPS's 
leased vehicles had fewer than 12,000 miles in fiscal year 2014, and 
some of them even had negative miles. How does FPS ensure officers are 
noting the correct mileage for its vehicles? Considering that half of 
FPS's vehicles fall under the Department's definition of underutilized, 
why does FPS still have these vehicles?
    Answer. FPS continues to collaborate with NPPD and DHS to implement 
best practices regarding reporting requirements of law enforcement 
vehicles that operate in varied geographical and operational settings. 
FPS currently tracks vehicle usage through a manual process. We have a 
monthly reporting system that collects all vehicle operating records 
and receipts from the operators and validates cost and mileage. FPS is 
aware that errors, such as negative mileage, may occur as a result of 
inaccurate reporting through our manual reporting processes. To address 
this issue in the short-term, FPS has changed its document monitoring 
from 10% sampling per month from the regions to 100% review monthly to 
help reduce errors.
    OCRSO is currently developing implementation instructions for 
Executive Order 13693, ``Planning for Federal Sustainability in the 
Next Decade'', which requires the use of motor vehicle telematics 
systems. These systems, when implemented, will automate the majority of 
all vehicle maintenance and mileage tracking while eliminating most, if 
not all human error. FPS is engaged with NPPD and DHS on this 
initiative.
    According to the current DHS Fleet Program Manual, utilization 
guidelines for GSA Fleet passenger-carrying vehicles are a minimum of 
3,000 miles per quarter or 12,000 miles per year. However, the manual 
further stipulates that where utilization guidelines are not met, 
components should have a vehicle justification process in place as a 
part of their VAM.
    FPS vehicle utilization and mission requirements are not based 
solely on mileage requirements, as provided for in the VAM for all Law 
Enforcement 1 and Law Enforcement 2 vehicles. There are a number of 
reasons that many vehicles do not meet the mileage standards but one of 
the primary reasons is that these vehicles are in densely populated 
metropolitan areas where time in the vehicle rather than mileage use 
dictates utilization.
    Question 5. Mr. Patterson testified that FPS continually looks at 
the how often vehicle maintenance issues resulted in a failure to 
complete mission requirements as part of its vehicle allocation 
process. However, the OIG reported that FPS had not completed a vehicle 
allocation methodology. What specific factors does FPS consider when 
allocating vehicles? Why is this process not part of a formal vehicle 
allocation methodology?
    Answer. FPS followed the guidance of DHS and NPPD vehicle 
allocation methodology and was in compliance with the Fiscal Year 2012 
VAM survey as required by DHS policy. FPS allocates vehicles based on 
the 1:1 law enforcement-to-vehicle ratio and the pool vehicle 
methodology for necessary operational rotation of vehicles. This ratio 
is necessary due to the requirement of its current law enforcement 
force of 1,004 officers, responsible to protect 9,600 geographically-
dispersed Federal facilities throughout all CONUS States and all 
American territories, to meet the FPS mission.
    This has been the model for FPS fleet sizing and is supplemented by 
the FPS Pool Vehicle Methodology for Operational Rotational vehicles 
which uses all scheduled and unscheduled maintenance activity, 
accident, and repair down time, location remoteness, and force size and 
mission requirements to ensure an adequate number of pooled vehicles 
are available so mission failure is not a result of vehicle 
availability. NPPD Fleet Management and FPS Fleet Management are 
working in concert to formulate analytics that will best represent the 
FPS fleet requirements and ensure it remains in compliance with the 
VAM.
    Question 6. According to DHS's fleet program manual, components 
must consider the need for vehicles driven less than 3,000 miles per 
quarter or 12,000 miles per year. Vehicles below that threshold are to 
be disposed of or reassigned. How many vehicles has FPS disposed of or 
reassigned over the last 5 fiscal years?
    Answer. FPS has reduced its fleet by over 100 vehicles since 2012 
and has reassigned Operational Rotational pooled vehicles based on 
need, but has not reassigned any mission vehicles.
    FPS currently has 1,004 law enforcement officers on-board with more 
than 200 in the pipeline to on-board with the agency. Upon completion 
of training, each law enforcement officer is assigned a portfolio of 
Federal facilities to protect, which are often geographically 
dispersed. It is counterproductive for the officers to share vehicles 
as it jeopardizes the agency's essential mission to protect the 
Nation's Federal facilities, tenants, and visitors therein. FPS will 
assign a vehicle from the existing fleet pool to each approved law 
enforcement full-time employee position in the fiscal year.
    Question 7. Mr. Patterson testified that while effective management 
would drive down costs, FPS's costs are actually increasing due to the 
need for more personnel to address the increased number of threats 
across the country. Does FPS intend increase its fees? If so, which 
specific fees will be increased? How will these new revenues be used? 
How many incidents have occurred over the last 5 fiscal years? Please 
provide data by fiscal year.
    Answer. The FPS reviewed various options for responding to a 
heightened threat environment to ensure that the safety and security of 
Federal facilities and personnel was maintained. The FPS has relied on 
overtime to support extended workdays for FPS law enforcement personnel 
and the deployment of additional officers to higher-threat locations, 
increasing costs and stretching FPS law enforcement personnel. Using 
the FPS Strategic Human Capital Plan and staffing model, DHS/FPS has 
developed a number of staffing options for responding to the increasing 
numbers of threat situations. The estimated costs and appropriate fee 
levels for each option have been developed using the FPS Activity-Based 
Cost (ABC) Model. Any changes in FPS fees and how those revenues will 
be used will be presented in future budget submissions.
    With regard to the question of how many ``incidents'' have occurred 
over the last 5 fiscal years it should be noted that not all law 
enforcement responses result in an incident or offense. In fiscal year 
2011, FPS responded to 47,135 calls for service; 43,573 in fiscal year 
2012: 52,079 in fiscal year 2013; 55,693 in fiscal year 2014; and 
59,815 in fiscal year 2015. Additionally, in fiscal year 2015, FPS 
began collecting activity data associated with Operation Blue Surge, 
such as vehicle inspections and pre-operational surveillance detection, 
which accounted for 323,565 responses and activities that is not 
reflected in Offense/Incident reports.
 Questions From Ranking Member Bennie G. Thompson for L. Eric Patterson
    Question 1. Director Patterson, over the past 2 years, Secretary 
Johnson has ordered several surges in operations due to heightened 
threat environments. Also, FPS has been called upon to increase its 
building security during protests in Ferguson and Baltimore, and it is 
reported FPS spent $2.3 million to secure Federal buildings during the 
Boston Bombing trial. Can you please tell me how these surges in 
operation affect your resources? Do you have enough money from the fees 
you collect to cover the costs of securing these buildings during the 
surges in operations?
    Answer. During fiscal year 2015 and fiscal year 2016, the FPS is 
relying on prior year carryover and recoveries to sustain surges in 
operations driven by the heightened threat. These costs were not built 
into the FPS basic security rate and administrative charge for building 
or agency-specific requirements to sustain long-term, and DHS and OMB 
are looking at various methods to identify the most appropriate and 
sustainable solution to address the funding requirements for the 
increased surge operations.
    Question 2. Director Patterson, even though I was disappointed to 
hear that FPS was not keeping adequate data regarding vehicle mileage, 
I was not surprised, given the history of administrative lapses the law 
enforcement agency has had over the years. How do you plan on keeping 
up with vehicle mileage for home-to-work employees going forward? I am 
sure that technology will be better than a paper log, so what type of 
technology do you plan on procuring and do you have adequate funds to 
procure this technology?
    Answer. FPS Administrative Services Division has increased 
screening of monthly Vehicle Operations Reports (VOR) from a 10% 
sampling to a monthly 100% review. The DHS Office of Chief Readiness 
Support Officer is currently developing implementation instructions for 
Executive Order 13693, ``Planning for Federal Sustainability in the 
Next Decade'', which requires the use of motor vehicle telematics 
systems. These systems, when implemented, will automate the majority of 
all vehicle maintenance and mileage tracking while eliminating most, if 
not all, human error. FPS is engaged with NPPD and DHS on this 
initiative.
    Question 3. During a random search, the inspector general found 
that most FPS officers did not have equipment in their vehicles to 
accomplish their required daily mission, including gas masks, riot 
gear, and protective suits. Please explain this lapse and what FPS is 
doing to ensure all agents have the necessary equipment.
    Answer. The process of equipment inventory was not formalized and 
standardized. To ensure that FPS officers and agents have the necessary 
equipment in their vehicles to accomplish their daily mission, FPS has 
clarified the list of mandatory equipment and required that quarterly 
vehicle inspections be conducted and documented with supervisory 
oversight.
    Question 4. Inspector General Roth stated in his testimony that 
some of the necessary equipment for each FPS officer was not even 
issued, and therefore not stored in each vehicle. Have steps been taken 
to ensure each officer is equipped with all the necessary items for the 
FPS mission? What steps are being taken to shorten the length of time 
it takes for an officer to receive all necessary equipment?
    Answer. To ensure each officer is equipped with necessary items for 
the FPS mission, FPS has clarified the list of mandatory equipment and 
required that monthly checks be conducted and documented with 
supervisory oversight. To shorten the length of time it takes for an 
officer to receive all necessary equipment, some equipment (such as 
personal protective equipment) is issued upon an officer's completion 
of training allowing its immediate use upon assignment, and other 
equipment will be assigned to vehicles and provided as part of the law 
enforcement vehicle upfit.
    Question 5. After the release of the inspector general's report, 
FPS finalized its formal fleet management policy. Please describe new 
policies implemented that directly address concerns highlighted in the 
inspector general's report.
    Answer. FPS developed FPS Directive 15.2.9.2, Fleet Management 
Directive (August 27, 2015). The Fleet Directive outlined procedures 
for FPS to monitor and document fleet acquisition and leasing 
decisions; directed the regular reporting of fleet expenditures; 
defined FPS fleet program standards in accordance with mission 
requirements and established authorized uses of fleet vehicles. It also 
defined FPS' process for verifying the completeness and accuracy of 
motor vehicle records, in compliance with Federal standards, to improve 
operational readiness reporting. In addition to the implementation of 
the August 2015 Fleet Management Directive, FPS is working directly 
with NPPD, DHS Management Directorate, and the DHS IG to discuss ways 
to improve VAM policy and reporting requirements.
    Question 6. According to the NPPD Fleet Manual, a class III midsize 
sedan is the preferred vehicle type, yet 93% of the FPS fleet is 
comprised of sports utility vehicles (SUVs). Please explain the FPS' 
decision to not utilize the preferred vehicle type.
    Answer. GSA published FMR Bulletin B-33, which provides guidance to 
Executive Agencies regarding the acquisition of alternative fuel 
vehicles for law enforcement (L/E) and emergency vehicle fleets. LE 
vehicles fall into three classifications; FPS's fleet is in the first 
tier or LE 1:
  <bullet> L/E 1.--An L/E 1 tiered vehicle is configured for 
        apprehensions, arrests, law enforcement, police activities or 
        dignitary protection, and is assigned to pursuit, protection, 
        or off-road duties. An L/E 1 vehicle must be equipped with 
        heavy-duty components to handle the stress of extreme maneuvers 
        and have the horsepower required achieving the speeds necessary 
        to perform these functions.
  <bullet> FPS orders all its vehicles through GSA.--FPS is limited in 
        vehicle availability based on what GSA offers for L/E rated 
        vehicles. FPS was the security element for FEMA at the time and 
        provided security for disaster areas like Katrina, tornado, and 
        other natural disasters like the Iowa flooding. The higher 
        wheel base of the SUV makes them more maneuverable in extreme 
        weather conditions; less likely to flood out; provides a more 
        elevated view of road or terrain features and is able to 
        perform tow requirements. Vehicles purchased during the 2007-
        2011 time were leased for 84 months to maximize the 
        amortization of the upfit cost.
  <bullet> GSA began offering a fully developed L/E rated sedan in 2013 
        that would meet the requirements of the L/E 1 tiered 
        configuration.--FPS completed no vehicle order in 2013 but 
        ordered in the fiscal year 2014 cycle. FPS turned in 75 
        vehicles and received 16 SUVs and 33 class II compact sedans in 
        fiscal year 2015 as part of the fiscal year 2014 order. FPS is 
        evaluating the effectiveness of these vehicles against 
        operational requirements and will base future replacement 
        vehicle recommendations will base future replacement vehicle 
        recommendation based on the analysis.
    Question 7. In the inspector general's report, he highlights 
discretionary equipment added to FPS vehicles, including bike rack 
hitches, rechargeable flashlights, and premium wireless security 
systems, increasing costs of each vehicle up to $20,000. According to 
the inspector general's testimony, this equipment, which increased 
vehicle costs up to $20,000, was not justified. Mr. Patterson, do you 
agree with Mr. Roth's assessment that this discretionary equipment is 
not justified? Mr. Patterson, please explain the need for this 
discretionary equipment.
    Answer. FPS believes the discretionary equipment cited by the 
inspector general is justified for mission requirements and situations 
related to officer safety:
    Bike racks are essential for efficiently and safely transporting 
bicycles assigned to bicycle patrol officers. The hitch receiver (bike 
rack hitch) was standard equipment on the previously utilized vehicles, 
but is not included as standard equipment on the current vehicle model. 
The new bike rack does not require the hitch receiver.
    Rechargeable flashlights are important to insure that the officer's 
flashlight is always charged and ready to use. When an officer's 
flashlight starts to dim during an emergency, it's too late to change 
the batteries.
    Wireless security systems help to insure the security of valuable 
and accountable equipment, including weapons systems, ammunition, and 
body armor, while the vehicle is unattended and generally provide 
better protection than the Original Equipment Manufacturer (OEM) 
system. From time to time, FPS tries different systems to determine 
which one(s) provide the best protection for selected FPS vehicles and 
recently rejected an expensive after-market security system.
    Also, it should be noted that the $20,000 cost cited by the 
inspector general includes other law enforcement-required equipment 
such as vehicle radios, emergency visual and audible warning devices, 
gun racks/vaults, and prisoner partitions.
    Question 8. Under current law, agencies have wide flexibility in 
identify the criteria by which they will justify the acquisition of 
vehicles and ensure their full utilization. However, this flexibility 
must be supported with proper procedures and internal controls. What 
utilization criteria does FPS use to determine the number of vehicles 
needed, and how does FPS monitor vehicle utilization? The IG found that 
49 percent of FPS leased vehicles were driven less than 12,000 miles in 
2014. Does FPS consider vehicles that travel under 12,000 miles per 
year to be underutilized?
    Answer. FPS is assessing whether specific vehicles with travel 
under 12,000 miles per year are to be considered underutilized. Many of 
these vehicles are located in remote, isolated, or inner-city areas 
where facilities are measured by city blocks apart instead of miles 
apart. FPS vehicle utilization and mission requirements are not based 
solely on mileage requirements, as provided for in the VAM for all Law 
Enforcement 1 and Law Enforcement 2 vehicles. There are a number of 
reasons that many vehicles do not meet the mileage standards but one of 
the primary reason is that these vehicles are in densely-populated 
metropolitan areas where time in the vehicle rather than mileage use 
dictates utilization.
    FPS follows the DHS Fleet Program Manual VAM survey requirements 
and utilization considerations. Through the annual utilization 
retention analysis, FPS assesses all vehicles with few than 12,000 
miles per year and documents additional justification for retention. 
The retention justification for the most of the vehicles with fewer 
than 12,000 miles driven is driven by location, as they are in remote, 
isolated, or inner city/urban areas where facilities are measured by 
city blocks apart instead of miles apart. FPS and NPPD Program 
management offices are working, in concert, to validate 2015 annual 
retention analysis and estimates that this will be completed by April 
1, 2016.
    Question 9. In fiscal year 2013, FPS identified 44 under-utilized 
or nonessential vehicles in its fleet, however FPS retained 40 (91%) of 
these vehicles. Please provide the reasoning for retaining under-
utilized vehicles in the fleet. Please also explain to the committee 
how these vehicles were used after the fiscal year 2013 audit.
    Answer. FPS vehicle utilization and mission requirements are not 
based solely on mileage requirements, as provided for in the VAM for 
all Law Enforcement 1 and Law Enforcement 2 vehicles. There are a 
number of reasons that these vehicles do not meet the mileage standards 
but one of the primary reasons is that many vehicles are in densely-
populated metropolitan areas where time in the vehicle rather than 
mileage use dictates utilization.
    FPS did turn in 4 vehicles that utilization data or Operational 
Rotation vehicle methodology could not sustain. FPS retained the 
remaining law enforcement vehicles based on the mileage threshold 
because they were located in densely-populated metropolitan areas but 
are still required to meet operational requirements. In 2015, NPPD 
established a vehicle utilization retention process that better 
documents the decision on vehicle dispositions.
    Question 10. After the release of the inspector general's report, 
FPS ordered additional vehicles and refreshed 16% of its fleet. Please 
describe the need and justification for these additional vehicles. Does 
FPS still have an access of over 100 vehicles in the fleet as of today?
    Answer. Since the 2012 VAM survey FPS has reduced its fleet size by 
100 vehicles. The FPS fleet is leased and these orders are for 
replacement vehicles. The FPS fiscal year 2014 vehicle order was a one-
to-one replacement order--49 leased vehicles turned in with expiring 
leases and 49 replacement leased vehicles ordered. The fiscal year 2015 
replacement order has been rescinded pending further review and 
analysis on the type of vehicle required.
    FPS maintains a readiness pool of vehicles for situations when a 
primary issued vehicle is taken out of operations for repair, 
maintenance, rotation, or an accident. In order to determine the 
optimal number of operational readiness vehicles, FPS has developed and 
documented a methodology. Since FPS has different types of vehicles 
such as canine vehicles, the pool vehicle methodology must provide pool 
requirements for each vehicle type. The updated pool vehicle 
methodology calculation results in a goal of maintaining 91 vehicles to 
cover 236 FPS locations. Although FPS currently has approximately 110 
readiness vehicles in the readiness pool, this number fluctuates daily 
due to attrition (which could cause a temporary increase in size) and 
issuing vehicles out to new hires, accidents, or unscheduled 
maintenance (that will cause that number to decrease).
    Question 11. Director Patterson, Inspector General Roth was unable 
to determine how a vehicle within the FPS fleet could register 
``negative'' mileage. Have you evaluated the cause of this 
miscalculation? What practices have been implemented at the management 
level to ensure this error does not continue in the future?
    Answer. FPS continues to collaborate with NPPD and DHS to determine 
best practices regarding reporting requirements of law enforcement 
vehicles that operate in varied geographical and operational settings. 
FPS currently tracks vehicle usage through a manual process and has 
identified the negative vehicle mileage reporting to be entry error 
when entering vehicle mileage at the fuel pump. We have a monthly 
reporting system that collects all vehicle operating records and 
receipts from the operators and validates cost and mileage. To address 
these issues in the short-term, FPS has changed its document monitoring 
from 10% sampling per month from the regions to 100% review monthly to 
help reduce errors. FPS has implemented a pump entry review process 
within the regions that since corrected this issue.
    OCRSO is currently developing implementation instructions for 
Executive Order 13693, ``Planning for Federal Sustainability in the 
Next Decade'', which requires the use of motor vehicle telematics 
systems. These systems, when implemented, will automate the majority of 
all vehicle maintenance and mileage tracking while eliminating most, if 
not all, human error. FPS is engaged with NPPD and DHS on this 
initiative.
    Question 12. Unlike other DHS components, FPS leases almost all of 
its vehicles. What type of life-cycle analysis has FPS performed to 
determine that this is most efficient to lease vehicles? Given that 
fact that FPS spends money to specially equip these vehicles, would it 
be cheaper to purchase fewer vehicles than leasing the current number 
of vehicles?
    Answer. The GSA-leased fleet accounts for 97% of FPS vehicles and 
represents the lowest possible cost to acquire vehicle systems capable 
of meeting FPS law enforcement mission requirements. The exception is 
specialty vehicles (i.e., mobile command vehicles, X-ray vehicles, 
motorcycles) which are purchased because they aren't available to lease 
through GSA. Vehicle leasing includes all operations and maintenance 
costs and has been an effective alternative to vehicle purchasing. FPS 
ensures that all vehicles are maintained in accordance with the GSA 
prescribed vehicle maintenance schedules. The vehicle maintenance 
records are validated with the GSA Maintenance Control Center. This 
process provides for rapid repair or unscheduled maintenance actions 
and vehicles are routinely replaced at the expiration of the lease 
period. All vehicle disposals or vehicle valuations are processed by 
GSA. FPS uses a staff of two full-time employees and 1 contractor to 
manage the entire current FPS fleet. An owned fleet would require much 
more extensive staffing and management which is additional cost. FPS 
would also be constrained fiscally to provide the up-front funds 
required to begin replacing leased vehicles with owned vehicles. The 
replacement cost for one-fifth of the current fleet with up-fit costs 
included is approximately $12 million. This would relieve approximately 
$2 million of current lease cost and increase the FPS fleet operating 
cost from the current $13 million to approximately $25 million the 
first year and reducing that amount by approximately $2 million per 
year over the next 4 additional years. Year 6 would be the first year 
of no major vehicle purchases unless vehicle maintenance to maintain 
the first year of owned vehicles became excessive. FPS would not have 
the ability to maintain its own vehicles as many larger DHS entities do 
because of FPS vehicle distribution. Other DHS entities have large 
pools of vehicles which lend themselves to garages, maintenance 
activities, mechanics, and spare item inventories. FPS distribution 
would require a National maintenance contract or a series of 
maintenance agreements around the entire United States and its 
territories. FPS would need to sign a vehicle maintenance contract with 
GSA to help track and perform the maintenance on FPS-owned vehicles.
    Question 13. The inspector general's report highlights Region 11, 
which is the D.C. region, and its high home-to-work miles, specifically 
stating that home-to-work costs approximately $300,000 per year in the 
District of Columbia. Does every officer in Region 11 have home-to-work 
privileges? Have you examined the need for every officer in the D.C. 
region to commute to and from work in his or her official vehicle?
    Answer. Currently, every officer assigned to the National Capitol 
Region (NCR), Region 11, is authorized and utilizes home-to-work. FPS 
intends to transition to a rotating roster of personnel to be on call 
for response efforts based on a continuous assessment of operating 
requirements and the dynamic threat environment. FPS is currently 
pursuing measures to reduce the home-to-work utilization from 100% of 
Region 11 officers to a 35% target baseline level. This measure is 
being implemented in phases to provide time for proper evaluation of 
mission impact. FPS estimates completion of this evaluation before the 
end of fiscal year 2016. After the initial assessment in the NCR, FPS 
will evaluate the required home-to-work authorization and utilization 
target baseline levels for all its regions to safely and efficiently 
perform the FPS law enforcement mission.
         Questions From Chairman Scott Perry for Thomas Chaleki
    Question 1. The OIG reported in 2013 that 64 NPPD employees should 
not have been eligible for home-to-work because DHS policy requires 
that employees live no farther than 50 miles from work. How many 
Department employees with home-to-work authorization live farther than 
50 miles away? Please provide information by component, with FPS broken 
out separately from NPPD. What is the average mileage for the vehicles 
used by employees with home-to-work authorization who live farther than 
50 miles from work?
    Answer. The following table details the number of employees, within 
each component, whose residence is located beyond 50 miles from their 
official duty station. As requested, the Federal Protective Service 
(FPS) is broken out separately from NPPD. The number for NPPD reflects 
the component as a whole, including FPS. Approximately 98.5 percent of 
the home-to-work transportation authorizations listed was approved 
under the law enforcement provision; the remaining authorizations were 
approved under the field work provision.
    For those employees whose residence is located more than 50 miles 
from their official duty station, the average monthly home-to-work 
transportation mileage is 1,035 miles, based on data submitted for 4th 
quarter, fiscal year 2015.

------------------------------------------------------------------------
                                                             Number of
                                                             Employees
                     Component Name                          Beyond 50
                                                               Miles
------------------------------------------------------------------------
Customs and Border Protection...........................             194
U.S. Immigration and Customs Enforcement................             177
National Protection and Programs Directorate (total)....              59
Federal Protective Service..............................              50
Transportation Security Administration..................               3
U.S. Secret Service.....................................             211
                                                         ---------------
      Total.............................................             726
------------------------------------------------------------------------

    Question 2. According to Mr. Chaleki's statement, the Office of the 
Chief Readiness Support Officer (OCRSO) reviewed each component's home-
to-work requirements, which resulted in a justification for each 
authorization. What did this review entail? To what extent has the 
OCRSO determined whether each authorization's justification is 
sufficient rather than simply on file?
    Answer. On December 17, 2014, the deputy under secretary for 
management directed all components to submit only home-to-work 
transportation authorization requests necessary to meet mission 
requirements. The chief readiness support officer (CRSO) followed with 
a memo to all components on December 19, 2014 that provided additional 
guidance on the submission requirements and to make clear that all 
submissions must follow the format outlined in the DHS Home-to-Work 
Transportation manual and to include all the elements listed as 
follows:
    (1) A listing of the component's most critical home-to-work mission 
        priorities that comply with statutory, regulatory, and policy 
        requirements;
    (2) A risk-based assessment for home-to-work authorization 
        reductions within the component's operational mission;
    (3) A listing that prioritizes home-to-work requests by category 
        from lowest to highest risk;
    (4) Specific examples of duties being performed after hours;
    (5) Clear justification for requests where a low number of after-
        hours call-outs was reported;
    (6) A detailed explanation on whether or not the component used a 
        duty roster for on-call personnel, and if not, what method is 
        or will be used to ensure only mission essential usage of home-
        to-work vehicles; and,
    (7) A certified listing of all home-to-work users by category as 
        outlined in the memo.
    The Office of the Chief Readiness Support Officer (OCRSO) fleet 
manager met with all component fleet managers and law enforcement 
personnel on December 18, 2014, to further discuss and clarify the 
submission requirements.
    Upon receipt of a component's home-to-work transportation 
authorization request that was reviewed, approved, and signed by each 
component head, OCRSO reviewed the entire request package to ensure 
that each required document was included, and then reviewed each 
document in detail to ensure that it complied with the requirements set 
forth in the aforementioned memos, DHS policy, and Federal regulation. 
Based on the review, OCRSO responded to each component with a series of 
questions and comments or to request additional documentation, clarify 
assertions within the request, and/or request additional justification 
when necessary. OCRSO collaborated with the Office of General Counsel 
in this review. Once the review was complete, the analysis of each 
request was documented and forwarded to the Secretary of Homeland 
Security for consideration.
    The Department's current home-to-work transportation authorizations 
were approved through June 2016. This was an approval for a 1-year 
period versus the standard 2-year approval.
    Question 3. What steps has the OCRSO taken to ensure that FPS 
complies with Federal and Departmental requirements to complete a 
vehicle allocation methodology?
    Answer. OCRSO rewrote the DHS Fleet Manual Instruction to include a 
definition of the vehicle allocation methodology (VAM) and updated 
Departmental requirements for conducting a VAM to include frequency and 
outputs. Components may conduct their own VAM but if they choose to do 
so, the method and statistical outputs are submitted to and approved by 
OCRSO. Exclusions or exemptions from completing a VAM, or retention of 
vehicles that do not currently meet utilization standards, are approved 
by OCRSO.
    Question 4. What are the most significant barriers that currently 
stand in the OCRSO's way in ensuring effective oversight of component 
vehicle fleets?
    Answer. Many of the barriers that hampered OCRSO's ability to 
provide effective oversight of component vehicle fleets have been, or 
are quickly being addressed. For example, DHS Delegation 00500, 
Delegation for Administrative Services, provides the Chief Readiness 
Support Officer with the authority to provide oversight of the DHS 
fleet programs. Recent progress in the development of the Consolidated 
Asset Portfolio and Sustainability Information System (CAPSIS) is 
providing fleet personnel insight and analysis capabilities not 
previously possible, and the update of the DHS Fleet Management 
Instruction will provide stronger policy that will enable OCRSO to 
ensure component fleets are managed effectively. OCRSO is working 
through budget and personnel processes to ensure sufficient resources 
are in place to oversee vehicle programs.
    Question 5. GAO reported in 2014 that agencies may choose to have 
devices installed on GSA-leased vehicles that provide information, such 
as vehicle location, idling, and speed, that fleet managers can use to 
manage and reduce costs of fleet operations. To what extent is DHS 
pursuing this technology? What challenges, if any, does DHS face in 
obtaining this technology?
    Answer. In 2013, OCRSO began pursuing fleet technology for vehicles 
participating in the Southwest Border Fuel Savings Initiative. OCRSO 
partnered with CBP and ICE to develop requirements for a system that 
would capture fuel consumption, utilization, and vehicle diagnostics. 
Since that time, this initiative has expanded to eventually outfit over 
17,000 owned vehicles operated by CBP, ICE, and FLETC with telematics 
hardware. Efforts are currently underway to upgrade 68 fueling sites 
along the Southwest Border with the required infrastructure. This 
initiative is expected to become operational in August 2016.
    OCRSO is continuing to work with components to determine the 
feasibility of expanding this telematics program, or similar 
technology, across the entire DHS motor vehicle fleet. OCRSO is looking 
to identify a single solution that can be deployed DHS-wide and is 
compatible with our existing data systems. OCRSO will evaluate the 
systems currently being offered by GSA. There is no dedicated funding 
for vehicle telematics beyond the Southwest Border Initiative. 
Beginning in March 2017, all leased vehicles will be outfitted with 
telematics as they are exchanged on the normal refresh cycle with the 
cost added to the overall lease. Owned vehicles will be outfitted as 
component funding becomes available.
    Fleet telematics is a new field for DHS fleet managers. OCRSO is 
working with component fleet managers to develop a telematics policy 
that addresses emerging concerns about the collection and use of 
sensitive law enforcement vehicle location information as well as cyber 
concerns regarding information security. Further, DHS is engaged with 
the Department of Transportation, the National Highway Traffic Safety 
Administration, as well as other Federal agencies and automotive 
industry representatives, to identify risks and determine mitigation 
strategies related to motor vehicle cybersecurity threats and 
vulnerabilities.
    Question 6. In 2014, the OIG reported that DHS and its Fleet 
Manager did not have the authority necessary to oversee components' 
fleet operations. DHS responded that it would strengthen this 
official's authority. To what extent has the CRSO improved the Fleet 
Manager's ability to exercise authority over components fleet 
operations?
    Answer. The inspector general recommended that DHS ensure that the 
DHS Fleet Manager has adequate oversight and necessary enforcement 
authority over Component Fleet Managers' efforts to acquire vehicles, 
right-size their fleets, and eliminate underused vehicles. DHS 
concurred with the OIG recommendation. To strengthen the DHS Fleet 
Manager's oversight role, OCRSO has reviewed and updated the DHS Fleet 
Manual Instruction strengthening the DHS Fleet Manager's ability to 
provide proper oversight.
    Additionally, the DHS Fleet Manager's ability to provide adequate 
oversight of Component Fleet Programs has been strengthened as a result 
of OCRSO's implementation of a single, Department-wide fleet management 
data system that provides more visibility into the components' fleets, 
resulting in more transparency into component right-sizing efforts. 
CAPSIS consolidates Department-wide fleet data into a single portfolio 
management system. The system has already given OCRSO the ability to 
conduct in-depth analysis of each component's fleet management in ways 
not previously possible. Over the past 2 months, OCRSO has begun 
extensive analysis of component fleet data by comparing their 
aggregated data in CAPSIS against the FAST data being reported to GSA 
in the 2015 annual FAST report, as well as developing a Fleet Data 
Scorecard that will identify data anomalies and inconsistencies to 
components on a monthly basis.
    Question 7. In March 2015, the President issued an Executive Order 
that mandated Federal departments to determine the optimal vehicle 
fleet size. Under this Executive Order, the Secretary of a Department 
is allowed to exempt ``law enforcement, protective, emergency response, 
or military tactical vehicle fleets of that agency.'' In order to 
implement the Executive Order, DHS has modified its fleet vehicle 
manual, including its vehicle allocation methodology. How many vehicles 
in DHS's overall fleet will be exempted under this provision? What 
methodology is used to determine which vehicles in the fleet should be 
exempted? Will FPS be exempted from this requirement?
    Answer. It is expected that some law enforcement vehicles that are 
specifically built for, and used for, protection activities, off-road 
and pursuit activities may be granted exemptions from the Energy 
Independence and Security Act of 2007, Section 141, and Executive Order 
13693 pertaining to the reduction of fossil fuel consumption, increased 
alternative fuel use, and the acquisition and use of low greenhouse 
gas-emitting vehicles. These vehicles will still be evaluated according 
to VAM requirements. This will be necessary to ensure that each vehicle 
acquisition is a valid requirement and is the right size and type for 
the mission.
    Question 8. According to Title 40 of the United States Code, the 
head of each executive agency is required to have a centralized system 
to manage their vehicle fleets and to provide oversight of those 
operations. What is the status of such a centralized system at DHS?
    Answer. OCRSO completed the development of CAPSIS, which was 
designed to consolidate Departmental real and personal property, mobile 
assets, and sustainability management information. Within CAPSIS, the 
Asset Management Data Warehouse consolidates Department-wide fleet data 
into a single portfolio management system to include performance 
management modules. It also integrates operational information from 
fleet card systems for Government-owned vehicles and applicable GSA 
reports for leased vehicles.
    The CAPSIS fleet management information system now contains fleet 
data from all DHS components. OCRSO is currently developing a fleet 
data scorecard that will ensure components are reporting quality data 
by providing component fleet managers with a monthly report that 
identifies data anomalies and/or inconsistencies. OCRSO expects to 
implement fleet data scorecard reporting during fiscal year 2016. 
Additionally, OCRSO will begin submitting the annual Department-wide 
FAST report utilizing the CAPSIS fleet management information system 
beginning with the fiscal year 2016 FAST submission which is due in 
December 2016. OCRSO provided the DHS OIG with a demonstration of the 
CAPSIS fleet management information system on November 18, 2015. The 
OIG indicated that they were pleased with the system developments, and 
they look forward to another demonstration once the fleet data 
scorecard has been implemented.
    Question 9. In response to the OIG's 2014 recommendations on DHS 
management of fleet operations, DHS stated that it would charter a 
working group to, among other things, benchmark component 
accomplishments and processes put in place since fiscal year 2012. DHS 
stated that this effort would be completed by September 30, 2015. Did 
this occur and, if so, what were the outcomes? Please provide the 
information compiled, or any report that compiles, the benchmarked 
information on components.
    Answer. OCRSO established a working group to review the DHS Fleet 
Instruction Manual following the release of the inspector general's 
report OIG-14-126. The working group was comprised of OCRSO fleet staff 
as well as component fleet managers. The group reviewed the DHS Fleet 
Instruction Manual and made recommendations to strengthen the manual, 
adopting best practices from component fleet practices. The changes to 
the manual are summarized below.
DHS Motor Vehicle Fleet Program Instruction Summary of Change
            Major Changes
  <bullet> Establishes CRSO as responsible for management and oversight 
        of the DHS Motor Vehicle Fleet Program;
  <bullet> Establishes CRSO as responsible for assessing component 
        fleet programs to evaluate compliance with laws, regulations, 
        policies, directives, and sustainability mandates;
  <bullet> Strengthens vehicle acquisition justification guidelines;
  <bullet> Provides guidance for compliance with Executive Order 13693 
        and Energy Independence and Security Act (EISA) 141;
  <bullet> Changes formatting throughout to increase clarity and 
        standardize appearance in line with existing DHS Instructions; 
        and
  <bullet> Reduces the citation of Federal Management Regulation 
        language throughout, and aligned instruction content with DHS 
        strategy, policy, and existing regulations.
Summary of Change Details
            Vehicle Use
  <bullet> Provides new definition and guidelines for Official Use;
  <bullet> Provides additional guidance on the transport of non-
        Government personnel;
  <bullet> Provides guidance on alcohol use and operation/use of DHS 
        vehicles;
  <bullet> Provides additional guidance for crash/accident reporting;
  <bullet> Provides additional guidance on Vehicle Operator 
        responsibilities; and
  <bullet> Reduces home-to-work program guidance in favor of cross-
        referencing the revised DHS Home-to-Work Instruction.
            Vehicle Acquisition
  <bullet> Provides additional guidance on the execution of the VAM, 
        and
  <bullet> Establishes CRSO as having review and approval authority for 
        component acquisition and replacement plans.
            Sustainability
  <bullet> Provides guidance on the implementation of telematics motor 
        vehicle information technology systems per Executive Order 
        13693, and
  <bullet> Implements new EISA guidelines and sustainability targets.
            Records and reporting
  <bullet> Provides further guidance for the retention of Fleet Program 
        records, and
  <bullet> Provides additional appendices to include references and 
        contacts for Federal Management Regulation and DHS Reporting 
        Requirements.
    Question 10. Mr. Roth testified that FPS refreshed 16% of its fleet 
despite the OIG informing FPS and the Department that 234 vehicles in 
its fleet had fewer than 5,000 miles. Moreover, Mr. Chaleki noted in 
his statement that that OCRSO reviews and approves all component GSA 
lease submissions. In light of this, please explain why OCRSO approved 
this lease submission.
    Answer. In fiscal year 2015, FPS processed a request through NPPD 
to replace 182 vehicles on a 1-for-1 basis to refresh the FPS fleet. 
This order was for 152 SUVs and 30 sedans. This request represented a 
zero growth acquisition. After analysis by NPPD and the DHS Fleet 
Manager, FPS reduced their original fiscal year 2015 GSA vehicle order 
from 152 SUV's down to 98; a 36 percent reduction. The revised order 
contained 44 Interceptor Sedans including right-sizing of 15 Criminal 
Investigator vehicles from Interceptor SUVs to Interceptor Sedans. The 
DHS Fleet Manager initially approved this order.
    Subsequent to this order being approved, OCRSO became aware of a 
utilization retention analysis conducted by NPPD that identified 217 
FPS vehicles as underutilized. Following OCRSO consultation with NPPD, 
the FPS fiscal year 2015 vehicle replacement order was rescinded by the 
NPPD Fleet Manager on November 11, 2015. OCRSO is currently working 
with NPPD to determine their vehicle requirements prior to submitting a 
revised order, if required, in the fiscal year 2016 GSA cycle.
    Question 11. Mr. Chaleki, according to the draft, updated DHS Motor 
Vehicle Fleet Program Manual, all vehicle acquisitions and lease 
agreements are to be reviewed by the CRSO. Since the implementation of 
the updated vehicle fleet program manual, have all components submitted 
their lease agreements to your office? How many lease agreements has 
your office reviewed?
    Answer. The updated DHS Fleet Management Instruction Manual is 
currently being reviewed by components and has not been officially 
implemented. However, all vehicle leases are reviewed by OCRSO. The 
fiscal year 2016 GSA replacement cycle has just begun and runs through 
March 2016. To date, OCRSO has received approximately 700 vehicle lease 
requests, which does not include any requests from FPS. OCRSO will 
begin reviewing all requests in January.
  Questions From Ranking Member Bennie G. Thompson for Thomas Chaleki
    Question 1. Mr. Chaleki, according to the draft, updated DHS Motor 
Vehicle Fleet Program Manual, all vehicle acquisitions and lease 
agreements are to be reviewed by the CRSO. Since the implementation of 
the updated vehicle fleet program manual, how many lease agreements 
have been reviewed by your office? How many were not approved or 
required modification by your office?
    Answer. The updated DHS Fleet Management Instruction Manual is 
currently being reviewed by components and has not been officially 
implemented. However, all vehicle leases are reviewed by OCRSO. The 
fiscal year 2016 GSA replacement cycle has just begun and runs through 
March 2016. To date, OCRSO has received approximately 700 vehicle lease 
requests, which to date does not include any requests from FPS. OCRSO 
will begin reviewing all requests in January.
    Question 2. The inspector general's report states that DHS did not 
provide sufficient oversight to ensure FPS complied with all Federal 
and departmental guidance. Do you agree with this assessment? What is 
the Department doing to better oversee fleet management at FPS?
    Answer. OCRSO does not provide direct oversight of the FPS fleet. 
FPS is a sub-component of NPPD. The DHS fleet manager works directly 
with the NPPD fleet manager on all fleet requirements for NPPD sub-
components. NPPD is responsible for ensuring that FPS complies with all 
Federal, DHS, and NPPD fleet management guidance and for ensuring that 
all information from the NPPD fleet and by extension, the FPS fleet, is 
accurately reported to the DHS fleet manager in a timely manner. To 
improve oversight of the DHS fleet, OCRSO is updating the DHS Fleet 
Management Instruction Manual and has improved its fleet data 
collection capabilities through improvements to the CAPSIS data system.
    Question 3. The inspector general's report recommends that you 
develop and administer a standardized vehicle methodology for all 
components annually. The Department concurred with this recommendation. 
Please explain what steps you are taking to fulfill this 
recommendation. Please also explain why a standard vehicle methodology 
was not being utilized previously.
    Answer. OCRSO is currently developing requirements documentation to 
conduct a Department-wide VAM in fiscal year 2017. No vehicles will be 
exempt from participating. OCRSO conducted the Department's first VAM 
survey in 2012 for all DHS components. ICE and USSS did not participate 
in this initial VAM survey. ICE completed a partial VAM that same year 
to include mileage and fuel consumption, but was unclear about the 
vehicle usage requirement in the survey and the possible security 
implications. Once the security concerns were addressed, ICE conducted 
a full VAM in fiscal year 2014. USSS also cited security concerns as 
the reason for not participating in the initial VAM survey. In 2013, 
OCRSO conducted a follow-up VAM and continued to track progress towards 
vehicle reduction targets. As a direct result of the efforts taken 
through the VAM between 2012 and 2015, the Department has experienced 
an 8.3 percent reduction in its motor vehicle fleet.
    Question 4. The Department's Fleet Manager serves as the last 
review of fleet management decisions. The inspector general found that 
DHS did not always ensure FPS completed the Vehicle Allocation 
Methodology (VAM) or provide sufficient documentation justification for 
having additional vehicles. Please explain the Department's lapse in 
oversight and future plans to better ensure FPS is operating the most 
cost-efficient fleet.
    Answer. In 2012, DHS conducted its first VAM to assess the fleet. 
As a sub-component of NPPD, the entire FPS fleet was subject to the VAM 
assessment. In fiscal year 2012, the FPS total vehicle inventory was 
1,307. As a result of the VAM conducted by NPPD, the FPS fleet 
eliminated 129 vehicles reducing the fleet to a total of 1,178 
vehicles.
    The lack of a centralized fleet management information system 
hampered OCRSO's ability to provide proper oversight of component fleet 
operations. The development of CAPSIS and the consolidation of 
Department-wide fleet data into a single portfolio management system 
have given OCRSO the ability to conduct more in-depth analysis of each 
component's fleet management in a way not possible earlier.
    Over the past 2 months, OCRSO has begun extensive analysis of 
component fleet data by comparing their aggregated data with CAPSIS 
against the FAST data being reported to GSA in the 2015 annual FAST 
report, as well as developing the Fleet Data Scorecard. Additionally, 
OCRSO consolidated Department-wide home-to-work data and has begun 
extensive analysis of this data, as well as development of the Home-to-
Work Data Scorecard. These initiatives will provide OCRSO with 
oversight opportunities previously not available.
    As a result of these two developments, OCRSO is currently 
conducting in-depth analysis of the NPPD Fleet Program, including FPS. 
We are meeting regularly with the NPPD Fleet Manager to address 
inconsistencies in their fleet and home-to-work program.
    Question 5. As Fleet Manager, do you oversee FPS' use of the 
Vehicle Allocation Methodology or VAM? Please explain the inspector 
general's finding that FPS did not use the VAM as intended and has not 
implemented an allocation tool to properly justify the number, type, 
and use of the current fleet. What steps are in place to develop an 
appropriate allocation methodology and/or to better utilize VAM?
    Answer. NPPD provides direct oversight of the FPS fleet. The DHS 
Fleet Manager works directly with the NPPD Fleet Manager on all fleet 
requirements for NPPD sub-components. OCRSO is currently conducting an 
in-depth analysis of the NPPD Fleet Program, including FPS. We are 
meeting regularly with the NPPD Fleet Manager to address 
inconsistencies in their fleet and home-to-work program.
    As recommended in the inspector general's report, OIG-16-02, OCRSO 
is conducting analysis of VAM technology available in the private 
sector that can be procured and implemented in fiscal year 2017 and 
sustained in subsequent years.
    Question 6. What incentives or penalties does DHS have that would 
ensure FPS and other components within DHS run efficient fleet 
operations?
    Answer. DHS does not have or utilize any incentives or penalties to 
ensure the efficiency of fleet operations by components. DHS Delegation 
00500, Delegation for Administrative Services, delegates to the Chief 
Administrative Office (now the Chief Readiness Support Officer) DHS-
wide authority and responsibility for administrative services, to 
include the motor vehicle fleet. Further, the CRSO is empowered to 
rescind component authority to lease or acquire vehicles if personnel 
demonstrate a lack of capability to carry out the appropriate 
functions.
    As analysis of newly-acquired fleet data and home-to-work 
utilization data are analyzed, and strengthened Fleet and Home-to-Work 
Instructions are issued, the CRSO is empowered to take action where 
deficiencies in fleet management are identified.
    Question 7. Your office is responsible for FPS fleet management at 
the Department. Please explain to the committee the office's daily 
responsibilities with overseeing the FPS fleet, including monitoring 
purchase decisions, equipment upgrade decisions, and overall fleet 
management.
    Answer. Subject to the oversight, direction, and guidance of the 
under secretary for management, DHS Delegation 00500, Delegation for 
Administrative Services, delegates to the chief administrative office 
(now the chief readiness support officer) DHS-wide authority and 
responsibility for administrative services, including the motor fleet, 
which is overseen through life-cycle management and other mission 
support functions. Life-cycle management may include capital planning, 
requirements development, operations and maintenance, supply chain 
functions, acquisition and disposal, and other similar functions.
    Further, DHS Delegation 00500 delegates to component heads the 
authority to administer the administrative services programs for their 
components, subject to the direction, oversight, and DHS policies 
issued by the chief administrative officer (now the chief readiness 
support officer). The delegation also empowers the CRSO to rescind such 
authority if component personnel demonstrate a lack of capability to 
carry out the appropriate functions. FPS is not a DHS component; rather 
it is a sub-component of NPPD. As such, the FPS fleet is subject to the 
management and oversight of NPPD. OCRSO provides oversight to the NPPD 
fleet manager and requires all FPS issues be vetted by NPPD leadership 
before being forwarded to the DHS fleet manager.
    OCRSO has begun extensive analysis of component fleet data by 
comparing their aggregated data with CAPSIS against the FAST data being 
reported to GSA in the 2015 annual FAST report, as well as developing 
the Fleet Data Scorecard. Additionally, OCRSO has consolidated 
Department-wide home-to-work data and has begun extensive analysis of 
this data, as well as development of the Home-to-Work Data Scorecard. 
These initiatives will provide OCRSO with oversight opportunities 
previously not available.
    As a result of these two developments, OCRSO is currently 
conducting in-depth analysis of the NPPD Fleet Program, including FPS. 
We are meeting regularly with the NPPD Fleet Manager to address 
inconsistencies in their fleet and home-to-work program.
    Question 8. The Department was recently subject to an inspector 
general report, OIG-14-126, that questioned the Department's fleet 
management policy. Please describe what changes have been made in 
oversight in response to the inspector general's findings.
    Answer. The inspector general recommended that DHS ensure that the 
DHS fleet manager have adequate oversight and necessary enforcement 
authority over component fleet managers' efforts to acquire vehicles, 
right-size their fleets, and eliminate underused vehicles. DHS 
concurred with the OIG recommendation. To strengthen the DHS fleet 
manager's oversight, OCRSO reviewed and updated the DHS Fleet 
Management Instruction strengthening the DHS fleet manager's ability to 
provide proper oversight.
    The inspector general also recommended that the Department 
implement a single, Department-wide fleet management data system that 
would give the DHS fleet manager more visibility into components' 
fleets and make right-sizing efforts more transparent. DHS concurred 
with the OIG recommendation and developed CAPSIS. CAPSIS consolidates 
Department-wide fleet data into a single portfolio management system. 
The system has already given OCRSO the ability to conduct in-depth 
analysis of each component's fleet management in a way not previously 
possible. Over the past 2 months, OCRSO has begun extensive analysis of 
component fleet data by comparing their aggregated data in CAPSIS 
against the FAST data being reported to GSA in the 2015 annual FAST 
report, as well as developing a Fleet Data Scorecard that will identify 
data anomalies and inconsistencies to components on a monthly basis.

                                 [all]
</pre></body></html>
